<html>
<title> - [H.A.S.C. No. 112-61]THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/11: PERSPECTIVES FROM FORMER CHAIRMEN OF THE JOINT CHIEFS OF STAFF</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-61]

 
                     THE FUTURE OF NATIONAL DEFENSE
                    AND THE U.S. MILITARY TEN YEARS
                     AFTER 9/11: PERSPECTIVES FROM
                      FORMER CHAIRMEN OF THE JOINT
                            CHIEFS OF STAFF

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 8, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
68-462                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  
                                     

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey               KATHLEEN C. HOCHUL, New York
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, September 8, 2011, The Future of National Defense and 
  the U.S. Military Ten Years After 9/11: Perspectives from 
  Former Chairmen of the Joint Chiefs of Staff...................     1

Appendix:

Thursday, September 8, 2011......................................    45
                              ----------                              

                      THURSDAY, SEPTEMBER 8, 2011
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
   11: PERSPECTIVES FROM FORMER CHAIRMEN OF THE JOINT CHIEFS OF STAFF
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Andrews, Hon. Robert, a Representative from New Jersey, Committee 
  on Armed Services..............................................     2
McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1

                               WITNESSES

Giambastiani, ADM Edmund P., Jr., USN (Ret.), Former Vice 
  Chairman of the Joint Chiefs of Staff..........................     8
Myers, Gen. Richard B., USAF (Ret.), Former Chairman of the Joint 
  Chiefs of Staff................................................     4
Pace, Gen. Peter, USMC (Ret.), Former Chairman of the Joint 
  Chiefs of Staff................................................     6

                                APPENDIX

Prepared Statements:

    Giambastiani, ADM Edmund P., Jr..............................    66
    McKeon, Hon. Howard P. ``Buck''..............................    49
    Myers, Gen. Richard B........................................    53
    Pace, Gen. Peter.............................................    59
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Giffords.................................................    85
    Mr. Scott....................................................    86
    Mr. Turner...................................................    81
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
   11: PERSPECTIVES FROM FORMER CHAIRMEN OF THE JOINT CHIEFS OF STAFF

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, September 8, 2011.
    The committee met, pursuant to call, at 10:05 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The committee will come to 
order. We have a very special hearing today. We have very 
special witnesses with us, and we are all back from our summer 
work period. Everybody looks rested, tanned, excited, ready to 
go.
    And we have a brand new member of our committee, Kathy 
Hochul. We just had a nice visit in back before we came out, 
and she introduced herself, told me a little bit about her, and 
I am really looking forward to getting to know her better and 
working with her on the committee. She said she is wanting to 
reach across the aisle and work well together, so I know we are 
going to have a great time together.
    Welcome to the committee.
    Ms. Hochul. Thank you, Mr. Chairman.
    The Chairman. Largest committee in Congress, and when you 
are sitting way down there it seems like it will take forever 
to get up here. It goes pretty fast.
    Good morning, all. The House Armed Services Committee meets 
this morning to receive testimony on ``The Future of the 
National Defense and the U.S. Military Ten Years After 9/11.'' 
Perspectives of former Chairmen and Vice Chairmen of the Joint 
Chiefs of Staff are here with us. As our Nation marks the 10th 
year anniversary of the attacks on our Nation this Sunday, we 
remember and commemorate the lives lost on that day. We also 
honor the sacrifices made every day since then by our military 
and their families, as our Armed Forces have taken the fight to 
the enemy to ensure our continued safety here at home.
    This somber marker serves as a call for reflection. 
Therefore, the committee will undertake a series of hearings 
over the next month to evaluate the lessons learned and to 
apply those lessons to decisions we will soon be making about 
the future of our force.
    With the decade mark approaching, our Nation finds itself 
at a strategic juncture. Osama bin Laden is dead. Al Qaeda is 
on its back. The Taliban has lost its strategic momentum in 
Afghanistan, and Iraq is an emerging democracy.
    Yet with success comes the danger of complacency that will 
erode our resolve. Faced with serious economic challenges, we 
are slipping back into the September 10th mentality that a 
solid defense can be dictated by budget choices, not strategic 
ones.
    As members of the Armed Services Committee, our duty is to 
make sure that the choices we make concerning the Federal 
budget are dictated by our National Security Strategy, not the 
other way around. I believe the Department of Defense has 
already absorbed more than its fair share of cuts, over a half-
trillion dollars through 2021. Nevertheless, if the Joint 
Select Committee's recommendations are not adopted, an 
additional half a trillion could be taken away from our 
military automatically. What is more, the White House has told 
DOD [Department of Defense] to include similar levels of cuts 
in next year's budget request. Therefore, it would appear that 
regardless of what actions Congress takes, the Administration 
will propose to cut the military further.
    As chairman of the Armed Services Committee, I have two 
principal concerns that stem from recent military atrophy. The 
first is a security issue. In a networked and globalized world, 
the Atlantic and Pacific Ocean are no longer adequate to keep 
America safe. September 11th taught us that.
    The second is an economic concern. While it is true that 
our military power is derived from our economic power, we must 
recognize that this relation is symbiotic. Cuts to our military 
defense, either by eliminating programs or laying off soldiers, 
comes with an economic cost. While the U.S. military is the 
modern era's greatest champion of life, liberty, and the 
pursuit of happiness, it is time that we focus our fiscal 
restraint on the driver of the debt instead of the protector of 
our prosperity.
    With that in mind, I look forward to a provocative and 
enlightening discussion this morning.
    Mr. Andrews.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 49.]

  STATEMENT OF HON. ROBERT ANDREWS, A REPRESENTATIVE FROM NEW 
              JERSEY, COMMITTEE ON ARMED SERVICES

    Mr. Andrews. Thank you, Mr. Chairman, and let me wish you 
an early happy birthday. I understand tomorrow is your 
birthday.
    The Chairman. Oh, yeah.
    Mr. Andrews. We wish you many, many more years of good 
health and good life.
    The Chairman. Thank you very much.
    Mr. Andrews. It is great to have you as a friend.
    Mr. Smith is on his way. He will be joining us for the 
hearing, but I would ask unanimous consent that his opening 
statement be entered in the record.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    Mr. Andrews. And just briefly, I would like to make a 
couple comments which I share with Mr. Smith and I think 
reflect the spirit of his comments as well. One is a reflection 
of thanksgiving and success; the second is to challenge 
orthodoxy; and the third is to encourage us to think 
strategically.
    The success that the United States has had in the 10 years 
since 9/11 is very significant. By citing this success, we by 
no means are saying that we should let our guard down. We are 
by no means declaring an unconditional victory and saying, 
don't worry about these risks anymore. Nothing could be farther 
from the truth.
    But let us take a moment and praise and thank the men and 
women both in and out of uniform that brought us these 
successes for the last 10 years.
    And these three witnesses this morning, Mr. Chairman, are 
excellent witnesses to educate us but also to hear our words of 
praise because each of the three of them has played a pivotal 
role in the success that we have seen, and I suppose one of the 
many highlights was the successful operation on the 1st of May 
in Pakistan against Osama bin Laden. And we understand that 
there were tens of thousands of Americans who stood behind that 
operation, who did the hard work out of the limelight and 
succeeded. And they were supported by millions of both 
uniformed and non-uniformed personnel.
    We thank each one of them, and we are glad that the three 
of you are here to receive that thanks.
    We would encourage people to challenge orthodoxy. We have 
had a stale debate in this country for a long time about the 
deficit. And one side says it is a spending problem; the other 
side says it is a revenue problem. We think it is both, and we 
think that a fair and reasonable approach to solving this 
problem must consider both, and the same applies to the 
military debate that we have had about more versus less.
    We think we should think strategically and that the choice 
between a secure country and a smaller military budget is a 
false choice. If we think strategically, find the areas of 
common agreement based upon that strategic thinking, we think 
that we certainly can have both a more secure country and more 
modest outlays in this area.
    Reaching that strategic objective requires us to do two 
things. One is to check our ideology at the door, and the 
second is to listen to and learn from those who have done the 
real work of protecting the country, to educate us about where 
reductions in expenditures can be made, where they cannot be 
made, where investments are fruitful and where they are not.
    This committee, Mr. Chairman, is not only the largest in 
the House, I think it is maybe the best, certainly one of the 
best, in the House because there has been a long tradition that 
has been extended under your chairmanship of an apolitical 
approach to solving our country's problems. I think you have 
been very much a part of that. I hope we can conduct these 
hearings in that same spirit, listen to each other, learn from 
the witnesses, and find a way forward that secures our country.
    I thank you.
    The Chairman. Now let me welcome General Richard Myers, 
General Peter Pace, Admiral Edmund Giambastiani.
    I say that like an Irishman. Gentlemen, it is good to have 
you back before the committee to provide your perspectives on 
how the military has evolved since 2001 and how we should apply 
the lessons of the last 10 years to the future of our force. 
Your unique perspectives as leaders of the U.S. military during 
the Nation's past decade of war is vital in understanding where 
our military goes from here. Thanks in no small measure to your 
leadership in the days and the years following 9/11, the U.S. 
military has kept our country safe.
    I think the day after 9/11, even later that day, all of us 
around this Capitol were expecting further attacks, and 
probably none of us at that time would have thought that we 
would go 10 years without another major attack on our homeland. 
You really helped to see that that was so. We are grateful for 
your continued service to our Nation and your presence here 
today.
    We will hear first from General Myers.

    STATEMENT OF GEN. RICHARD B. MYERS, USAF (RET.), FORMER 
             CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Myers. Thank you, Mr. Chairman, and I thank the 
committee members for the opportunity to appear before you 
today. First, I would like to thank you all for your unwavering 
support of our service men and women as they dedicate their 
lives to our freedom. The support from this committee for our 
military has been stalwart for many decades, and from those of 
us that used to wear the uniform, we really appreciate that.
    This country has been at war for the last 10 years. The 
burden of our conflicts and engagement around the world has 
fallen predominantly on the shoulders of the U.S. military and 
their families. The resilience of our Active Duty and Reserve 
troops has been remarkable.
    However, as our efforts in Iraq and Afghanistan wind down 
and it presents the opportunity for fewer people forward 
deployed, now is not the time to lessen support for our 
fighting force.
    The best thing we can do for our men and women in uniform 
as they strive to protect us is to provide them with good 
leadership, robust training, and world-class equipment. For the 
last 10 years we have done this. Given our fiscal concerns, the 
question is, what support is America willing to provide going 
forward?
    Even though our forward deployed troops are predicted to be 
fewer in number in the near future, the threats to our security 
are still very great. Let me mention just three of these 
concerns. I believe that violent extremism continues to 
represent the biggest threat to our way of life. And while Al 
Qaeda is badly wounded, they and their ilk are not finished in 
their quest for a different world, a world dominated by their 
extreme brand of Islam and little tolerance.
    Living as we do in a free society, we will always be at 
risk to those who wish us ill, who are willing to die for their 
cause, and who consider innocent men, women, and children 
legitimate targets in their fight. The actions of the last 10 
years have made us safer than we were on 9/11, but we are not 
free from this scourge. It will take many years, a 
comprehensive multinational strategy, and the focus of all 
instruments of national power, including the military 
instrument of national power, to make this world safe from this 
threat.
    The nexus between violent extremism and the proliferation 
of weapons of mass destruction is another concern for our 
security. There is no question that if terrorists could obtain 
weapons of mass destruction, they would use them to maximum 
advantage for their cause. In this regard, Iran is particularly 
troubling.
    Iran's quest for nuclear weapon capabilities is disturbing 
for several reasons. Chief among these is the proliferation 
threat from Iran's newly acquired nuclear capability. If 
fissile material or a nuclear weapon were to fall in the hands 
of a terrorist group, the impact could be much greater than the 
tragedy of 9/11. The fact that we have little apparent leverage 
over Iran's actions makes this threat all the more concerning. 
And if Iran does develop a nuclear weapon capability, that 
would dramatically increase the potential for the development 
of nuclear weapons in the region. Obviously, this would be 
destabilizing. Regardless of the solution to the Iranian 
problem, a strong military will be necessary for any successful 
outcome.
    And, finally, the Asia-Pacific region has experienced 
unprecedented economic prosperity over the last several 
decades. As a Pacific nation, we must realize and remind 
ourselves that the prosperity of the Asia-Pacific nations 
contributes significantly to our prosperity. The U.S. military 
has played an important role in helping to ensure the security 
and stability of this area. The forward stationing of our land, 
sea, and air forces has served us well, but our influence in 
the region is now being challenged by China. We will need 
highly capable sea, land, air, and space forces to deal with 
China's anti-access, area denial efforts in this region that is 
so vital to our security and economic well-being.
    In addition to these and many other security concerns, we 
must realize the impact the reductions in defense spending will 
have on our force structure. History tells us that during 
reductions in defense spending, despite our best intentions, 
the procurement and research and development accounts take a 
disproportional share of the cuts. This leaves our Services 
without the modern equipment they need to replace old, 
outdated, and worn out equipment. As a Nation, we have always 
taken great pride in the fact that our military is the best 
equipped in the world. Deep budget cuts to defense will bring 
that fact into question.
    And, finally, we must be able to provide world-class health 
care to those who have been wounded in our current conflicts. 
As you know well, some of these wounds are visible, and some 
aren't easily seen. Nevertheless, our obligation is to provide 
the best health care we can to those who have put their lives 
on the line for us. Health care is not cheap, but any reduction 
in health care resources would be breaking faith with those who 
willingly go in harm's way.
    In my view, the world is a more dangerous and uncertain 
place today than it has been for decades. The three security 
concerns I have outlined above are all different in nature. 
However, they all will require a strong military to deal with 
them. Our historic lack of ability to predict where and when 
the next big threat to our security is coming from is well 
known, but we can be certain that a security surprise is in our 
future. What stands between these threats and our freedom is 
the U.S. military.
    Our fiscal difficulties are serious indeed. So are the 
potential security challenges facing us. We don't need to be 
the world's policemen, but we do need to provide leadership in 
this uncertain world. Our military must remain strong with the 
best leadership, superior training, and the best equipment. In 
doing so, our men and women in uniform will help keep us free 
and provide the stability that ensures our prosperity.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of General Myers can be found in 
the Appendix on page 53.]
    The Chairman. Thank you, General.
    General Pace.

 STATEMENT OF GEN. PETER PACE, USMC (RET.), FORMER CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    General Pace. Good morning, Mr. Chairman, and thank you for 
this opportunity.
    I have appeared before this committee many times before, 
but every time in uniform. This is my first opportunity to be 
here as a private citizen, and it is a uniquely different 
perspective, and I appreciate the opportunity.
    Although I don't have the privilege of representing the 
incredible men and women who serve in our Armed Forces anymore, 
I do take pride and privilege in joining you in thanking them 
and their families for the sacrifice they have made in keeping 
us free. It has been a long 10 years, and they have really been 
taking good care of us.
    So thank you, sir, for your opening comments about that.
    As you know, the economy and defense are two sides of the 
same coin. To the extent that you strengthen one, you 
strengthen the other. To the extent that you weaken one, you 
weaken the other. But I think we need to be very careful when 
we get into the budget discussions, which are necessary, that 
we look at defense not from a dollar and cents perspective. It 
is a unique entity of what our government provides to its 
citizens, which is security. It should be strategy-based. What 
do you want your military to do for your country? Is it what we 
are doing today plus one other thing? What is it?
    If we know what the strategy is that we want our military 
to execute, then the folks across the river in the Pentagon who 
do this for a living can tell you how many planes, how many 
ships, how many troops they need to execute the combatant 
commander's war plans. You can then apply budget numbers to 
that, and you will come up probably with numbers that are 
bigger than we can afford. Fair enough.
    But once we have the strategy and we know what it would 
cost to implement that strategy, then we can talk about 
additional risk by spending a little bit less here, spend a 
little bit less there. So I would simply urge this committee to 
please insist on a strategy-based approach to how you fund your 
military.
    Next, there has been an incredible strain on our force. 
Less than 1 percent of the Nation has been defending the other 
99 percent for 10 years. They are volunteers to do it. God 
bless them. They are doing extremely well. They are not 
complaining. But we have got troops and their families who have 
sustained 3, 4, 5, 6, 8, 10 deployments in the last 10 years. 
We have got moms and dads who are deploying away from their 
families every year or every other year. As we look at how to 
balance the budget, the message that Congress sends to the 
military and how you determine pay, and benefits and 
retirement, all of those will have significant impact on the 
men and women who serve today.
    Even today, as I walk through and I see Active Duty folks, 
the question they ask me, as they did when I was on Active Duty 
is, are the American people behind us? And it has been the 
absolute belief that even though some of our fellow citizens 
prefer that we not be fighting where we are, almost all 
appreciate the fact that we have warriors who are willing to 
put themselves in harm's way, and that message has come across 
loud and clear, both from our fellow citizens in the way they 
have treated our returning soldiers and service members in 
airports around the country, but also the way that Congress has 
allocated resources.
    We need to be careful not to be premature in cutting back 
on the resources that we are allocating to our Armed Forces. 
This is 10 years into a war that, unfortunately, our enemies 
have a war plan that calls for a 100-year war, and that does 
not mean we need to be in Afghanistan or Iraq or doing that 
size operation for 100 years, but it does mean that we have a 
tenacious enemy. And even though we have had great success, as 
you pointed out in your opening comments, Mr. Chairman, that 
can quickly be overturned if we are not vigilant. So the 
allocation of resources are--will be very important, not only 
to the standpoint of our troops and their families and their 
ability to fight, but also in how our industrial base is able 
to raise to the challenge.
    As General Myers just said, we don't know where the next 
challenge is coming from, but we have always had the ability to 
bring all of our strength to bear, which includes our 
industrial base. As we start allocating fewer resources, the 
impact on our industrial base must be looked at very carefully. 
We are very, very thin as a Nation in some of our capabilities, 
some of which could literally disappear overnight if we are not 
careful.
    Lastly, the challenge of which I am most concerned is not 
one of another nation, where we might have to deploy forces. 
You can go around the globe and talk about all the hot spots, 
and I know that our military today, if told to go do something, 
is capable of doing it and that it is simply a matter of 
deciding whether or not we want to apply what we know how to 
do, except in one area, and that area is cyber attack and cyber 
defense.
    The more anything is dependent on computers, the more 
vulnerable it is. And I know what we can do as a Nation as the 
attacker in cyber, and I know that we cannot defend against 
what we can do as a Nation. And therefore, as a military man, I 
have to presume that my enemies can either do the same thing, 
or they will be able to soon, or they may very well have 
something that we haven't thought of yet.
    So as we look at the budget and we look at strategic places 
to apply it, certainly the growing concern of cyber must be 
taken into account. Cyber is having and will continue to have 
an impact on the relations between nations similar to that of 
the advent of nuclear weapons, the difference being that 
nuclear weapons have been used and thank God have not been used 
again. Cyber weapons are being used thousands of times a day 
every day, and we are uniquely vulnerable.
    Mr. Chairman, thank you for listening, and I look forward 
to your questions.
    [The prepared statement of General Pace can be found in the 
Appendix on page 59.]
    The Chairman. Thank you very much, General.
    Admiral Giambastiani.

   STATEMENT OF ADM EDMUND P. GIAMBASTIANI, JR., USN (RET.), 
       FORMER VICE CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    Admiral Giambastiani. Thank you, Chairman and members of 
the committee for inviting me to testify alongside the two 
gentlemen to my right, who I had the privilege of serving as 
vice chairman under.
    I would like to compliment all of you for holding this 
hearing and for discussing this incredibly important topic at 
an important time.
    Thank you also for your unwavering support of our men and 
women in uniform, and we look forward to continued strong 
support in that area. I know you will provide it.
    Not only are we here to remember the event that led to the 
pivotal change in our national strategy, National Security 
Strategy, 10 years ago, we are here to undertake an important 
discussion of where we go from here. This discussion of our 
National Security Strategy is urgently needed and has been 
sorely lacking, in my view, in the recent debate about the 
greatest economic crisis our country has faced in the last 
eight decades.
    Our national security and economic health are, in fact, 
inextricably linked and interdependent. They must be considered 
together, and they must be addressed together. As you know, 
there are those who believe that drastic cuts should be made to 
our defense spending to help pay or help offset our Nation's 
debts. If the new Joint Select Committee on Deficit Reduction 
does not reach its targeted level of cuts, unprecedented 
automatic cuts to defense will be triggered. Huge cuts to 
defense spending combined with little to no analysis of their 
impact on our overall national security would have devastating 
consequences, something I think is akin to performing brain 
surgery with a chainsaw.
    Further, I would characterize this debate as nothing less 
than determinative of what our role in the world will be in the 
future. Will we continue to be a global superpower and a force 
for good? Or will we allow ourselves to become one amongst 
many, forfeiting both the freedom of action and leadership role 
in the world which has done so much for our citizens and for 
free people everywhere.
    Providing for the national defense is the most fundamental 
responsibility of our Federal Government. I know I don't have 
to tell this committee that. There are certainly ways to be 
more cost-effective, and it is unrealistic that the Department 
of Defense would be spared from shared sacrifices, but in my 
view, it is critical that we analyze our spending levels in the 
proper context that you have been hearing already this morning.
    Our national security is the one area for which our Federal 
Government is solely responsible. There is little room for 
error. Our National Security Strategy must drive any debate 
over the level of resources that the Nation should devote to 
national defense, and the ability of the American economy to 
generate these resources must inform our strategic thinking. A 
failure to do so, a failure to do either is likely to cost the 
United States more in the long run in both dollars and 
unfortunately in lives.
    A lack of discussion and agreement about strategy will 
ensure that any cuts in our security budget will be driven by, 
at best, arbitrary budget targets rather than reasoned, 
strategic goals, rational operational concepts, and executable 
investment plans.
    Mr. Andrews, I thank you for your comments about listening 
to the people who, in fact, do this on a daily basis and, to 
this committee chairman, your comments about listening to the 
folks who work on these issues day in and day out. Thank you 
again for the opportunity to testify.
    I will submit the rest of my statement for the record, sir.
    [The prepared statement of Admiral Giambastiani can be 
found in the Appendix on page 66.]
    The Chairman. Thank you very much.
    As I alluded to in my opening statement, cuts to the 
military come with economic consequences as well as 
consequences for our national security. For example, let's 
consider the impact of such cuts on end strength. In the event 
of a sequestration or a 10-percent reduction to the fiscal year 
2013 budget request, military spending would be reduced by 
about $55 billion a year, starting next October. That is huge. 
If the Department chooses to shed end strength to meet just 
part of this goal, we could easily be back below pre-9/11 
levels for the Army and Marine Corps. We already are below pre-
9/11 levels for the Navy and the Air Force.
    A couple of years ago, Secretary Gates was giving speeches 
saying that we could not take the defense budget below 1 
percent increase year over year or we would continue falling 
behind. Then he asked the Joint Chiefs to find $100 billion 
savings that they would be able to keep to use for more 
important things, savings through efficiencies. Then when he 
came back, he said, well, you are only going to be able to save 
about 70--keep about $74 billion of it. The other $26 billion 
will be needed for must-pay expenses. And while we were doing 
that we found another $78 billion across the board in savings.
    I think he was doing that to try to preempt further cuts. I 
don't think these were cuts that he especially wanted to see 
made, but it resulted, those cuts would result in the Army and 
Marine end strength being reduced by 47,000 by the year 2015.
    And then the President gave a speech saying that we needed 
to cut another $400 billion. And then we had the big fight over 
the deficit reduction and all of that. And then we came up with 
this committee that is going to cut $350 billion. And if that 
doesn't work, if they are not successful, then we have to do 
the sequestration, which increases it another $500 billion.
    But these things have been coming down the road so rapidly 
that it is hard to know where to even try to defend. And they 
are all based, in my view, on budgets rather than on strategic 
needs. Just reversed, I think, from the way it should be done.
    It was bad enough thinking that we would reduce end 
strength by that amount over the next 4 years, but then to have 
that accelerated up to a year from this December to achieve 
those savings actually in the year 2013 of the $55 billion, 
that could result in end strength reduction in the next year of 
over 100,000 troops while we are still fighting in Afghanistan. 
And we haven't decided yet what is going to happen in Iraq, and 
we don't know what is going to happen in other parts of the 
world.
    Based on your experience, what would the consequences be to 
the force and to military readiness by reducing the Army and 
Marine Corps' end strength to or below the pre-9/11 levels by 
fiscal year 2013?
    General Pace. Mr. Chairman, I will start.
    If I am going to be critical, I should first admit my own 
errors in judgment. In 2004, as the Vice Chairman, I remember 
sitting in a tank with the other chiefs having a discussion 
about, should we build the Army and build the Marine Corps 
because of the op tempo in Iraq and Afghanistan? And I remember 
General Pace saying to his fellow Chiefs, it will take us 2 
years to increase the size of the Army, increase the size of 
the Marine Corps, and that will take us to 2006, and if we are 
still this heavily engaged in Iraq in 2006, we will have done 
something really wrong.
    Well, as you know, we were still very heavily involved in 
2006, and then we went to the President and asked for an 
increase in the size of our force.
    We finally have the force now to where we can almost get to 
where they are not 1 year over and 1 year back. I mean, 1 year 
over, 1 year back, 1 year over, 1 year back, 1 year over, 1 
year back for years has put an enormous strain on our troops 
and, most importantly, on their families.
    The very last place I would cut before I knew what the 
strategy is and how many troops we need to execute that 
strategy would be in troops, because when you cut them, if you 
decide to turn it around again, you are looking at a 2-year at 
least ramp-up to where you can get the right size force.
    You want to have, if you can, the ability to have 1 year 
over and 2 years back so you have some family time and some 
training time. One of the problems with the force today is that 
during the 1 year they are back, they are training to go back 
and do the mission that they know they are going to do. So 
other skills that they would normally get a chance to train for 
in peacetime are atrophying. It is just a fact.
    But the Nation now has the chance as we draw down in 
Afghanistan and draw down in Iraq to give our Armed Forces the 
chance to breathe, to give them the chance to train up, to be 
properly prepared to do what they were able to do 10 years ago 
and arguably cannot do at the same efficiency now as they could 
10 years ago, not because they are not great troops but because 
we have got them fighting one kind of fight continuously.
    General Myers. Mr. Chairman, let me just add to what 
General Pace was describing there.
    When he said 1 year over, 1 year back, and he said that 
several times, it is 1 year back, 1 year over in harm's way, 1 
year back, which puts incredible stress on the families left 
behind as they think about their loved ones going over for 
another year. And then when they come home, a lot of stress 
because they know it is only going to be a year, a year of some 
rest, but a year of lots of training before they go back in 
harm's way again. And that is what Pete was saying, but I 
just--it is this harm's way that makes this, I think, so 
difficult.
    To answer your question, you are going to hear this a lot I 
think at least from this panel, and you have already said it 
and Mr. Andrews has said it, that somewhere in here strategy 
has to play a part. And so when we talk about end strength 
reductions, the question needs to be asked, okay, can we still 
execute the strategy that we signed up to as a Nation and as a 
military? We can't answer that. The folks that are currently on 
Active Duty and the Chairman of the Joint Chiefs can answer 
that, but I would say a precipitous decline in end strength 
could have the impact--I think this was the heart of your 
question--could have the impact of breaking unit integrity. If 
you have to draw down so fast, you are not at liberty to say, 
well, it is all going to come out of this brigade of the 10th 
Mountain or it is going to come out of this Marine Corps 
Division. It doesn't work that way. It will be spread broadly, 
and then I think you would have to think about--if you are 
going to try to do this by 2013, you have to think about the 
impact it would have on those units and their combat readiness, 
so that is how I connect the readiness dots to your question, 
Mr. Chairman, is that if you do it very, very quickly, you 
could, Services would have to answer this question, but my 
guess would be they would be worried about unit cohesion, unit 
integrity as they are preparing perhaps for the next deployment 
or just preparing for the war plans that the Defense Department 
is responsible for.
    Admiral Giambastiani. Chairman, as the Navy officer on this 
panel, General Pace talked about these rotation rates. Having 
deployed, and most Navy people deploying and a lot of Marines, 
for their lives, the ultimate and optimum rotation we found is 
always what we would call 1 in 3, in other words 2 years--2 out 
and 1 back, whether it is 6-month rotations, 9-month rotations, 
1-year rotations. And we found that was the best for families. 
It was the best for the service personnel. And if we stuck by 
those rotations--and we learned that lesson very hard, a very 
hard lesson, as a result of Vietnam. And we stuck to that for 
years and years and years in the Navy to make sure that we 
didn't create personnel problems.
    I think as Yogi Berra said, if you don't know where you are 
going, any road will lead you there. So if you are talking 
about troop cuts and you don't know the context, it makes no 
sense.
    One of the problems that typically occurs in these type of 
situations is when you focus only in one area, for example on 
troop strength, and you talk about cuts, what we have found in 
drawdowns that have occurred--and all three of us have been 
through three of them in our careers, after Vietnam, after the 
Gulf War, the Reagan buildup. When you look at these, typically 
what happens--and General Myers referred to this in his opening 
statement--is not only you draw down personnel, but you draw 
down the procurement, the modernization, and the things that 
make a difference for them, and that is where you get that term 
hollow force comes out. So all I would suggest to you is, 
again, if we don't have a strategy, if we don't have a policy, 
and if you don't know where you are going, it is hard to even 
judge what levels you need.
    Finally, General Pace mentioned about the 1 year out and 
the 1 year back. I want to remind everybody in the committee 
here that actually back in 2007, we had to extend Army units to 
15 months out because we just didn't have enough people to 
perform the mission to be at 1 and 1. Thank you.
    The Chairman. Thank you.
    We have been fighting this war now for 10 years, and as you 
pointed out, Admiral, I believe it was you that stated there 
was a plan, their plan was a 100-year war. It might have been 
General Pace.
    The longest war we had previously was the Revolutionary 
War, where we fought for our independence. That was 7 years, 
and I think at that time, troops would kind of come and go as 
they felt the need to be home harvesting crops or whatever. It 
was a different time.
    But one of the big problems we have facing the country is 
unemployment.
    General Pace, you work with a charitable organization 
called Wall Street Warfighters. You are doing great work there. 
Your mission is to place service-disabled veterans in careers 
in the financial sector. Currently, we have unemployment rate 
of 13 percent among our Iraq and Afghan veterans. What do you 
believe the impact on the job market would be if we separated 
over 100,000 service members beginning next year over the next 
year?
    General Pace. As you point out, Mr. Chairman, the national 
unemployment rate is just a little over 9 percent. Amongst our 
veterans as a group, about 13 to 15 percent. For those who are 
veterans who are 18 to 24, the rate is closer to 21 percent, 
and for those veterans who are wounded, it is almost 41 
percent. Those are today's numbers. If you put 100,000 more 
U.S. citizens back into the job-hunting market, I presume that 
those numbers would ratchet up somewhat.
    The Chairman. And then we pay unemployment, so we save 
money by cutting defense and then spend it for unemployment. So 
we weaken our military without a strategy in place and don't 
probably end up saving money. I think we really need to do some 
real thoughtful evaluation of this whole process that we are 
involved in.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    The chairman's comments earlier indicated that there was a 
specific instruction from the White House to the Defense 
Department to make downward adjustment in defense spending. I 
think the record more accurately would show that the relevant 
committees of the House have written to the DOD and asked what 
guidance they have received. And they have not yet responded to 
that. So I did want the record to reflect that.
    General Pace, I think you framed this exactly perfectly 
when you said the question we have to consider collectively is, 
what do we want our military to do for our country? I want to 
ask the three of you your considered professional opinion about 
whether our mission in Western Europe and our mission, our 
basing mission, in the Korean peninsula is--to prioritize that 
mission for us. If you are answering that question about what 
we want our military to do for us, do we want to maintain the 
presence in Western Europe and the Korean peninsula that we do 
now? If yes, why? If no, why? Any of the three of you, I would 
be interested in your answer.
    General Myers. When it comes to Europe, I think, this is my 
personal view, that the NATO [North Atlantic Treaty 
Organization] security alliance has been very successful for 
many years. I think it continues to be needed. I think European 
security and our security are tied and that any lessening of 
that alliance would put us in a riskier place.
    Having said that--and I was still in uniform when we 
started to reduce our troop strength in Europe, which I at the 
time and still do think is appropriate. I think at the end of 
the Cold War we started that process, and now the numbers are 
quite a bit down from where they were at the height of the Cold 
War. I think all that is appropriate, but I don't think we can 
lessen our support to and reliance on the NATO alliance. NATO 
has, the alliance has lots of issues, but I think abandoning it 
at this time would be a real mistake.
    Mr. Andrews. Do you think that we could maintain that 
strategic alliance with NATO at a lower level of troop and base 
presence in Western Europe?
    General Myers. Lower than today? Again, this is without a 
careful analysis that the Pentagon would go through, but I 
think we are probably getting down to the point where we have, 
with the cuts that have already been announced and the troops 
that are coming back, I think we are getting to the point where 
we are pretty close to minimum numbers. I mean, maybe you could 
save a few here or there, but it is a pretty minimal force now 
that is forward deployed in Europe. And I think there is real 
value to forward presence. That is my personal opinion. So I 
guess I think it would have to be very carefully evaluated 
before you reduce that strength any more.
    Mr. Andrews. General Pace, what do you think?
    General Myers. Can I talk about Korea for a second----
    Mr. Andrews. Sure.
    General Myers. Because you brought up the Korean peninsula.
    Mr. Andrews. Yes.
    General Myers. Again, when I was in uniform as Chairman, we 
did reduce our forces on the Korean peninsula. Again, I think 
that was appropriate. I believe we have a division left, more 
numbers than that, but basically a division, a fairly heavy 
complement of tactical air, which would be important in that 
conflict if it ever broke into conflict again, and I think that 
is important.
    You know, what we do, what you all will do in the end in 
terms of the Defense Department's budget is going to be watched 
by lots of folks, not just Americans, but our friends and 
allies and our adversaries. And it all comes down in the end 
to, what is America willing to do? Are we going to stand up to 
obligations that we have made? Where is our will and resolve on 
issues of our security and the security of our friends and 
allies?
    So I think some presence in Korea, the numbers are pretty 
small today, I would say that is, my view again, is roughly 
appropriate for where we are, and I think the danger is it 
could be seen--you know, weakness can be provocative. So if we 
were to leave the Korean peninsula, it might give those in the 
North a sense that nobody is going to come to their aid if we 
start a conflict to dominate the peninsula. I mean, I don't 
know if that scenario would ever come to pass, but weakness can 
be provocative. And I think we need to show some strength in 
light of the fact that we have already reduced quite a few 
numbers over there.
    Mr. Andrews. I am sorry, to the others, I have about 21 
seconds, but if you want to say something, you are welcome to 
do so.
    Thank you, General.
    General Pace. Mr. Andrews, if I may, clearly we have treaty 
obligations with our NATO allies. We have treaty obligations, 
and in fact, we have armistice obligations in Korea, so 
presumably, then, the strategy would be that we would--would 
include the fact that we would adhere to our international 
obligations. Fair enough.
    The question then becomes, on what timeline do you want me 
to do that? If you want me to be able to do it on today's 
timelines, then today's force laydown is about right. If you 
were to say to me, okay, instead of X days, we can go X plus 
some other number days, because we are in an unclassified room, 
then I would say to the military man, okay, with that amount of 
time to do the job, I can bring more troops home. I am going to 
have to deploy them. I am going to need the planes and the 
ships to be able to do this, but you tell me what you want me 
to do, which presumably is continue to defend Europe and 
continue to defend Korea, if needed, and the timeline in which 
you want me to do it, and I can lay out for you where I need 
the troops stationed and what kinds of transport I need to get 
them there. And then we can add the dollar and cents figures to 
that when we are done.
    Mr. Andrews. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you. In a sense, we face the perfect 
storm. We are just winding down two wars, more than a decade 
now. Our troops are worn out, many of them deployed a half a 
dozen times or more. Our equipment is worn out. We face two 
potentially very different kinds of enemies in the future.
    Will we choose to prepare our military to fight the hugely 
expensive asymmetric wars that we have been fighting, or will 
we prepare the military to fight for our life against a peer? 
There could be one, a resurgent Russia or a China. We don't 
have enough money to prepare for both of those wars without any 
cut in our budget.
    And then we face a huge debt crisis. Our deficit is several 
hundred billion dollars more than all the money we vote to 
spend, and of our discretionary spending, defense is more than 
half of that. So it is unrealistic to expect that we are going 
to do anything meaningful in terms of addressing the debt 
crisis without looking at defense.
    When the Republican budget was Paul Ryan's road map in the 
last Congress, it was so austere that only seven of us signed 
on as cosponsors to that bill. He reintroduced it again this 
Congress, and 13 of us signed on. And then it became the 
Republican road map.
    As severe as it is, it does not close, the budget does not 
balance for 25 years, and during those 25 years, our debt could 
essentially double. And it balances then only if you make what 
I think are unrealistic assumptions about economic growth, 
because another part of this perfect storm is the reality that 
the world has now plateaued in oil production. For 6 years now, 
we have been at 84 million barrels of oil a day. The IEA 
[International Energy Agency] has just recently recognized that 
conventional oil production will do nothing but go down from 
now on.
    Will we do something United States could not do? Will we, 
the world, do something the United States could not do? Because 
we reached our maximum oil production in 1970. No matter what 
we have done since then, we have produced less and less each 
year. In spite of drilling more oil wells than all the rest of 
the world put together, today we produce half the oil that we 
did in 1970. Unless we can do something different in the world 
than we did, and I don't think that will happen, oil production 
from now on is simply going to be going down inexorably. It 
happened in the United States; it will happen to the world.
    What is the greater threat to our national security? This 
debt which may bury us? I have 10 kids, 17 grandkids, and 2 
great grandkids. Every vote I take, I ask myself, is this vote 
in their best interest?
    Will we continue--will we be better off with a huge 
national debt or a restructured military looking at different 
missions? How do we resolve these competing demands? We can't 
do both. Mike Mullins said that the biggest threat to our 
national security was our national debt, and I think there are 
many in the country who would concur with that. How do we 
resolve these conflicting demands?
    General Pace. Mr. Bartlett, I will take a shot at it. As I 
mentioned in my opening comments, I do believe very strongly 
that a strong economy and a strong military are two sides of 
the same coin. And yes, of course, the military's budget must 
be part of the overall country's budget, but I think in the 
not-too-distant past, we had an increasing military budget that 
was a decreasing part of the U.S. budget because our economy 
was growing. So it is possible to have a very strong economy 
and a defense that is not eating a large part of the budget.
    We have gotten now to where we are in deep trouble, and 
therefore, yes, the military's budget should be looked at. But 
I think as we look at it and as you make the decisions you have 
to make, that we need to keep our military strong enough to not 
encourage any other adversaries to make things even worse for 
us.
    It is possible in the short term to have some efficiencies 
in your military, but in the long term you are going to need a 
strong military, as we have had in the past, to have a strong 
economy, as we have had in the past.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I apologize I was late this morning.
    I want to join the committee in, first of all, welcoming 
Kathy Hochul, the newest member of the committee. Thank you. It 
is great to have you on board. You will enjoy this committee. 
It is very bipartisan. We work on a lot of very interesting 
issues. Welcome aboard.
    And I thank the gentlemen for their testimony. I thank the 
chairman for holding this hearing.
    And there are really, sort of, two pieces of the problem. I 
think Mr. Bartlett hit one of the big ones, which I will touch 
on more in a minute. But the other is----
    The Chairman. Will the gentleman suspend for just a second?
    Mr. Smith. Sure.
    The Chairman. This demonstration that is going on outside 
is not to do with us, but it is peripheral because the debt 
commission, the ``supercommittee,'' is meeting across the hall, 
and this is a jobs demonstration.
    So, just as kind of a spillover, I just wanted to try to 
buy you some time so that we could hear what you are saying.
    Mr. Smith. We will use that as a backdrop for our 
discussions, to think about it.
    I think one of the things that is important to point out is 
the Administration is going through a strategic review of the 
Department of Defense and of our national security objectives 
and figuring out how to match them up. So the proposed 
reductions in the defense budget over the course of 10 years 
are not happening in a vacuum.
    They are not really just sort of saying, ``Well, we got to 
cut this money; we will figure it out later.'' They are, in 
fact, doing, you know, if not a zero-based budgeting approach, 
because that is difficult to achieve, they are going back to 
our first principles and saying, ``Where should we be spending 
our money on national security priorities,'' as, frankly, we 
have to do for the entire budget.
    [Disruption outside hearing room.]
    Mr. Smith. I will hold off for just a second here.
    So there is that review being undergone, and I think it 
should be. We are looking at a changing set of circumstances 
over the course of the next, you know, 5 to 10 years. We are 
beginning to--you know, we have certainly substantially drawn 
down in Iraq. We are going to begin to draw down in 
Afghanistan. You know, it is reasonable to assume that 4 to 5 
years from now, we will go from--I guess at our peak we had 
well over 200,000 troops deployed in active theaters, down, you 
know, potentially to none, but certainly down to a few 
thousand. How does that change our plans? I think we need that 
strategic review.
    And we still had, you know, through the QDR [Quadrennial 
Defense Review] and the planning process, a national security 
strategy that was largely based on the two major regional 
contingencies approach, imagining we have to fight a major war 
in Europe and a major war in Asia. That is not necessarily the 
most plausible scenario at this point that we need to plan for. 
So that strategic review is perfectly appropriate.
    But the other part of the problem is the problem that 
Representative Bartlett laid out, and that is we are in a very, 
very difficult budget situation, and everything has to be on 
the table. And, certainly, 20 percent of the budget, which is 
the Department of Defense, has to be on the table.
    But the one point I want to make that I don't think has 
been made yet is if we are passionately concerned about cuts in 
defense, it is not enough to simply make the argument as to why 
those cuts would be damaging, as you three gentlemen have done 
quite well, as the committee has done. We have to then look at 
the budget situation and say, well, what are we going to do in 
other parts of the budget so that we don't have to make those 
cuts?
    Because right now defense is in an incredibly vulnerable 
position. It is part of--I hate calling it the 
``discretionary'' portion of the budget because that right away 
plants in the minds of the American people that we don't really 
need to do it. And it is defense, amongst other things. So 
let's just think of it as the nonentitlement portion of the 
budget--probably a better way to put it. That is the one 
portion of the budget that Congress has to approve every year. 
The House, the Senate, and the President have to agree or no 
money gets spent. And until very recently, we could all say, 
well, yeah, but they would never do that. But given what 
happened in April and what happened in late July, we may have 
to rethink that outlook.
    So it makes it vulnerable. The entitlement portion of the 
budget? That money keeps going out unless Congress acts. Taxes, 
they stay where they are at unless Congress acts. The 
nonentitlement portion of the budget is incredibly vulnerable.
    So my point is, anyone on this committee, anyone who 
testifies before us who passionately cares about making sure 
that the defense budget does not get cut too much needs to 
spend--you can't spend all your time simply talking about the 
defense cuts. You have to spend more of your time saying, here 
is the revenue we are going to raise; here is where we need to 
make cuts in entitlements in order to make sure that we don't 
have to make those cuts.
    And we have a situation where, you know, the majority party 
is saying, no new revenue, absolutely not, absolutely, under 
any circumstances, that is off the table. Okay, that is gone. 
So we are not getting any more money. So now we are dealing 
with a budget that is 40 percent out of whack.
    Well, if you--and then the second thing the majority is 
saying is that we have to balance the budget as soon as 
possible. Well, to do that, if you don't touch defense, you 
have to cut everything else by almost 50 percent. And as those 
shouting folks down the hall will tell you, making any cut 
whatsoever in entitlements is brutal. Fifty percent?
    So if, in fact, it is this committee's position that we 
cannot cut defense, then this committee better come up with 
some places where we are going to cut and/or better rethink the 
issue of whether or not we need more revenue. I will go on 
record as saying we need more revenue. Yes, we have a 
significant spending problem. We have also seen a dramatic 
decline in our revenue.
    So it is not enough to just say, please, please, please 
don't touch our portion of the budget. If you don't deal with 
those other arguments, our portion of the budget is sort of--
well, we are last in line at a buffet that is rapidly running 
out of food. So we have to put the entire picture on the table 
and talk about that.
    The question that I wanted to give the three of you a 
chance to take a stab at: The main reason it costs so much for 
our defense is because power projection is a central part of 
our national security strategy. That is why we are in Europe, 
that is why we are in Korea, that is why we are in Asia. And as 
you gentlemen have pointed out, we have a number of alliances 
that are dependent, in part, on our promise of that power 
projection. You know, our presence in Asia, the reason we have 
a lot of allies, our military presence is something that has 
been there for quite a while that a lot of folks have come to 
count on. It is the same in Europe. And our ability to live up 
to the alliances that we have made is dependent upon projecting 
that power, and that is very, very expensive.
    If we were to have to make the kind of cuts--you know, say 
that we don't get any more revenues, say that we don't touch 
entitlements, and we are just faced with this, we are going to 
make a dramatic reduction in our national security budget--how 
does that change the equation of power projection?
    And then, what does that do to us? What if, all of a 
sudden, we don't have troops in Europe, we don't have troops in 
Asia, we are just, frankly, like pretty much every other 
country in the world? We have a national security force here at 
home and try to protect ourselves that way; how does that 
fundamentally change our national security posture?
    General Myers. I will take a stab at that, Mr. Smith.
    As I said in my opening statement, I think, as General Pace 
has said, that security and economic prosperity are heads of 
the same coin. And in terms of Asia-Pacific, I think our 
presence there has brought about a stability that the countries 
in the region have counted upon, so capital is not afraid, 
capital goes in. And, again, as I mentioned in my opening 
statement, unprecedented economic prosperity in the Asia 
Pacific nations--historic, never before seen in the world. I 
would say that a part of the reason is because of our presence 
there.
    So, as you think about a limited ability to project our 
power abroad, to have forces stationed overseas, I think then 
you call in to question our own economic prosperity. We are so 
dependent on Asia-Pacific today for economic prosperity.
    So, I mean, I was commander of U.S. Forces Japan, and 
General Pace and I served there together. And later on, I was 
over there as the Pacific Air Force's commander. And the thing 
you heard as you went around to every nation was how much they 
appreciate the United States being in the region, because they 
saw us--our friends and foes alike saw us as the honest broker 
in the region--the honest broker in the region. Left to their 
own devices, there are a lot of animosities that go way back, 
but you certainly don't have to go back much further than World 
War II to understand what some of these are. And you have to 
worry, I think, about stability and, perhaps, economic 
consequences of instability in the region if we weren't there.
    I think you can see the same thing in Europe, to a degree. 
Obviously, more well-developed, perhaps less needed in some 
parts of Europe. But in the newly independent states, I think 
we have played a very important role, both in NATO and on the 
continent there.
    And around the world--another scenario--Mr. Bartlett talked 
about oil. If we had a situation in the Persian Gulf where oil 
flow from Saudi Arabia, for instance, were disrupted for 
whatever reason--we can all think of scenarios--what nation on 
Earth could help restore stability in that region? Right now, 
it is only us. We would probably need help from our allies, but 
it is only us.
    Mr. Smith. And that is not a hypothetical. In the first 
gulf war, I mean----
    General Myers. Yeah, well, we flagged tankers for a long 
time and provided their safety.
    So I think this notion--you mentioned power projection, but 
I think the notion of being able to project power brings with 
it stability, which then allows economic prosperity to happen.
    Mr. Smith. If I could, I am way over time, but if you two 
gentlemen would take a quick stab at it, I would be curious.
    General Pace. Thank you, Mr. Smith.
    Again, we are back to strategy. What do you want your 
Nation's military to be able to do for you?
    And I absolutely understand what you said about 
entitlements and all the other things. I am not going to 
pretend to be something I am not. I am here as a private 
citizen who used to be in Active Duty military, and I will give 
you my best military advice, understanding that you, the 
members of this committee, the President, and the folks who 
have been elected and appointed need to weigh much more than 
that.
    But the military advice is, what do you want me to do? And 
if you tell me what you want me to do, I can tell you what it 
is going to cost. If you tell me to bring troops home, I am 
going to need more power projection capability. If you tell me 
to bring troops home and you cut my power projection, I am no 
longer a superpower.
    That is a strategic decision for the Nation. But if you 
want to continue to be the planet's only superpower and if you 
want to be able to continue to protect our citizens and our way 
of life and the way we do business around the world, then we 
are going to need to have a strong, conventional military.
    And I understand the dollar-and-cents piece of this. I am 
just giving you my best military advice on, either have us 
overseas deployed or if you want me to be able to impact there, 
give me the resources to get there and the timelines you want 
me there. If you don't have me overseas and you don't have the 
deployment resources, I am not going to be able do my mission 
for you.
    Mr. Smith. Admiral, did you want to add anything?
    Admiral Giambastiani. Yeah, I just want to emphasize that 
point, and that is on the power projection piece and basing.
    So much of what we are able to do today is because we have, 
in some cases, a minimal presence and a minimal basing 
structure in different areas. When you remove both of those or 
a significant portion of one or the other, your freedom of 
action is different.
    And remember, when you do these types of things, in my 
view, you wind up putting our soldiers, sailors, airmen, and 
Marines at risk when they have to perform a mission where they 
don't have the proper equipment or they don't have the proper 
bases to operate from. That is what I worry about most. And 
then casualty rates go up in the long run.
    Lastly, I would say none of us are suggesting that defense 
should be off the table for cuts.
    Mr. Smith. Right.
    Admiral Giambastiani. I worry, just as Mr. Bartlett does, 
about my children and my grandchild right now and what they are 
going to wind up being the benefactors of that we do. What I 
have learned in the past, though, is when we make very bad 
choices because we don't think about this strategy clearly and 
decisively enough, future generations wind up having to pick up 
the pieces.
    I would like to say that it is amazing what you can do if 
you don't have to do it and the ones 10 years from now are the 
ones who are trying to pick up those pieces.
    Mr. Smith. Right. Understood. And, you know, I completely 
agree; defense does have to be on the table. You know, I am 
just worried that the way things are going and the reason I did 
not vote for the, you know, deficit-ceiling deal that created 
the supercommittee across the street there was because it 
lumped it all on the nonentitlement portion of the budget.
    And the last thing I would say is, you know, General Pace, 
I certainly take your point about, you know, you are generally 
folks on national security stuff, not this other stuff. But, 
unfortunately, the way our budget works is, you know, if you 
care about a piece of it--and this is what people always say to 
us--they will say, ``Well, we want this spending, we want that 
tax cut, we want the other thing,'' and we say, ``Well, you 
know, we got some budget issues,'' ``Well, you figure that 
out.'' And I get that. But, eventually, you know, if the people 
don't support the taxes or the cuts in other programs that 
enable you to then support the program that they care about, 
then we can't do it.
    You know, we can't--I mean, right now we got a public that 
has, like, 80 percent of them oppose cuts entitlements, 70 
percent oppose tax increases. They oppose every specific cut 
imaginable, and then they strongly support balancing the 
budget. We have to begin to confront that inconsistency if we, 
as policymakers, are going to have the political space to make 
the choices that need to be made.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And thank you all for being here today.
    You have all made comments about the importance of tying 
budget to strategy, which is something that I think is a 
crucial point. And yet, in my time on this committee, I think I 
have seen very little of that generally. We set up this QDR 
process that is supposed to be an initial overall strategy that 
then we would go and fund and execute. But what really happens 
is the QDR turns out to be a budget-driven exercise as much as 
anything. And, essentially, you are given an amount of money 
and say, ``Here, go make the best of it.''
    I may exaggerate slightly, but I would be interested to 
know what that is like from your perspective. You all have been 
at the pinnacle of military strategy-making in our country. 
What is it like to not have a White House and a Congress make 
those strategic choices, but rather to just say, ``Okay, here 
is how much money you get; go deal with it''? Because it seems 
to me that it is kind of where we have been and maybe where we 
are headed.
    General Myers. You know, in an ideal world, you develop 
your strategy and then, as General Pace said, you try to fund 
it. Obviously, you can't fund it all, so you make your 
tradeoffs and then you develop a risk assessment. And you say, 
okay, here is our strategy, we can't do it all, here is the 
risk of that.
    And it is not an ideal world. It works exactly as you 
described, Congressman Thornberry, exactly like you described. 
And it is sometimes frustrating, you know, to see--on both 
sides of the river, by the way--things being taken, puts and 
takes that aren't strategic in nature but are serving other 
purposes.
    I do think, if you haven't read recently the Chairman's 
risk assessment--every year, Congress asks the Chairman of the 
Joint Chiefs of Staff to provide his own risk assessment 
against the strategy--the national security strategy, military 
strategy that is appropriate at the time. I did, I think, four 
of them. General Pace, I think, did two of them. They are 
classified. I haven't seen the recent ones.
    But I think a good baseline for all of this debate would be 
to see what Admiral Mullen said this spring. Usually, it is 
required over here in January or February. I know we have been 
late before. I am sure Admiral Mullen did better than I did in 
getting them here on time. But to get those out of the safe and 
see how Admiral Mullen looks at the current environment, the 
current strategy, and the risks of that strategy. And I think 
what you can expect from the Department of Defense is a hard 
look at the current strategy and those risks again.
    And those are all really good questions to ask the current 
Chairman, the incoming Chairman of the Joint Chiefs of Staff, 
to ask them to give you their risk analysis--probably would 
have to be done in a classified setting--so you can get some 
feeling for where budget and strategy meet and what the 
tradeoffs are and, most importantly, what the risk is if we 
fail to fund something.
    Admiral Giambastiani. I would just say that, to follow on 
General Myers, your appetite for strategy and what you can do 
generally in these QDRs--and I have been involved in every 
single one of them--is generally larger than what you wind up 
being able to execute.
    However, you do balance them by going through these risk 
equations, and you try to look at where you can, in fact, take 
more risk. And I find the exercises exceptionally important to 
go through, from my perspective when I was in the Pentagon. 
Because if you don't think about them, once again, you don't 
have a good idea how to judge those risks as you move into the 
future.
    Finally, you can never plan for every contingency, you can 
never plan for every surprise. And one of the things that you 
need to do in these exercises is to think about what type of 
flexibility that you build in to your force. That is why they 
are very important. And I would suggest to you that you really 
do need to continue to do them, because our ability to predict 
what is going to happen in the world just isn't very good, as 
you have already heard. It is a fact of life.
    So going through these exercises and being able to go 
through risk assessments is very important. So that is my 
perspective on this.
    General Pace. I would just quickly add, sir, that there is 
a very disciplined process on the Joint Staff, run by the J8 on 
the Joint Staff, called ``operational availability.'' And it 
has been going on now for the last 12 years. And, each year, 
the Joint Staff, under the J8's direction, working with the 
Services, looks at various contingencies, one of these here, 
one of these there, continuing to fight here, and does all 
kinds of mixes and matches and comes up with the size force 
that would be needed.
    And that is used by the Services and by the Department to 
help produce these budgets so that we have a war-plan-based 
approach to our requests. But it needs to have a capstone of a 
strategy of what you want us to do, and we can then feed all of 
this homework into that strategy.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Thank you, gentlemen. I appreciate your service to the 
Nation.
    Admiral Mike Mullen has said publicly that the greatest 
threat that America faces is not external but internal, our 
debt and deficit situation.
    When the greatest threat, according to the most recent 
Chairman of the Joint Chiefs of Staff, is internal, does that 
then make it a responsibility of the Joint Chiefs to make 
recommendations regarding this internal threat?
    General Pace. From the standpoint of helping to be part of 
the solution, absolutely----
    Mr. Cooper. Yes.
    General Pace [continuing]. Sir, absolutely.
    And I wouldn't propose to speak for Admiral Mullen, but I 
think you could also say that a strong military is essential to 
a strong economy.
    So we are not saying the military budget should be off the 
table. What we are trying to do is give our best military 
advice as you wrestle with all of the other things you have to 
wrestle with. We are talking about the military slice of what 
this country does, and we understand there is much more that 
has to be dealt with.
    But I am not going to do you any good if I start averaging 
averages, so to speak, if I start thinking I know what you can 
accept and not accept. I need to give you my best military 
advice about how to have the best military security for the 
country, and then you will tell me how much we can afford.
    Mr. Cooper. You gentlemen know that these are the first 
wars--the wars in Iraq and Afghanistan--the first wars in 
American history that we didn't even try to pay for. There was 
no war tax. There were no war bonds.
    So this is a problem that has grown over many years, but it 
started with the realization that, for first time in our 
history, we did not take prudent fiscal steps to back up our 
men and women in uniform with adequate resources to fund these 
wars. Instead, we borrowed the money from China and other 
foreign nations.
    So how is that part of a responsible national security 
strategy?
    General Pace. Sir, I can't answer that because I don't 
think anybody in the Pentagon went to China and borrowed any 
money.
    Mr. Cooper. But were recommendations made in the Joint 
Chiefs circle to Administration and congressional officials 
that, perhaps, just as the public should support our troops 
publicly, that we support them financially?
    General Myers. There was actually a lot of discussion 
about, if we are a Nation at war, why is it that a lot of the 
Nation doesn't feel like we are at war? And I think it gets to 
your question. There wasn't a war tax. Most Americans weren't 
asked to sacrifice a whole lot for the last 10 years of war 
unless they had loved ones that were involved in it or members 
of the State Department or Justice, Commerce, whoever was going 
forward to carry out our country's bidding.
    So, in that sense, I think the Joint Chiefs were--you know, 
we--and I think voiced our concerns that--not particularly on 
the budget. I mean, we didn't have 2008 in our mind and the 
collapse of the housing market and all of which--we didn't know 
any of that.
    We did feel that there ought to be a way to connect most 
Americans to this effort. And, you know, we talked about it, 
but we are not experts in that area. We just provide our 
advice, and that is what we did.
    Admiral Giambastiani. Mr. Cooper, if I could just add, I am 
certainly not going to speak for the defense leadership that is 
currently in right now, but from what I have seen in their 
statements, they have come up with a series of plans--to start 
with Secretary Gates and Admiral Mullen, they have come up with 
a series of initiatives to reduce the overall defense spending 
through a variety of ways.
    And I think now what you are hearing is they are at a point 
where they are at a crossroads. We are at a limit of what we 
think we can do to stay on the path we are currently on, from a 
military strategy standpoint.
    So I don't disagree with Admiral Mullen. The reason why we 
have had such a wonderful military is because of this 
phenomenal engine and free enterprise here in the United 
States. And without it, you are not going to have that 
wonderful military.
    Mr. Cooper. Admiral Giambastiani, you have the headline of 
the hearing with your statement that automatic across-the-board 
budget cuts, including on the military, would be like ``brain 
surgery with a chainsaw.'' That is a pretty stark phrase.
    But that is exactly where the supercommittee is headed 
unless it can get one Democrat to vote with the Republicans or 
one Republican to vote with the Democrats or if some miracle 
happened and they were all unanimous. Otherwise, it is likely 
to be six-six split, and then the default option is automatic 
across-the-board budget cuts.
    Can you think of a way to make this supercommittee do its 
job?
    Admiral Giambastiani. I guess I am an optimist, and I am 
looking forward to this supercommittee doing what the right 
thing is--and that is, not to let those triggers take effect.
    Mr. Cooper. Uh-huh.
    Admiral Giambastiani. I have no suggestions beyond that. I 
am an optimist, and I do think the way we operate in this 
Government should be able to manage this.
    Mr. Cooper. Thank you, Mr. Chairman. I see my time has 
expired.
    General Pace. If I may just add, sir, I would ask the 
supercommittee members to think about the fact that there are 
so many military members and families who have defended this 
Nation to the best of their ability from external threat. And, 
as you have pointed out now, this is an internal threat that 
these 12 individuals have been tasked to help us solve.
    If they would think about, I would hope, the sacrifices 
made by their military to give them this opportunity to do what 
they need to do now, I believe, as Admiral G. just said, that 
they are good people and we should all be encouraging them to 
do the right thing--not whatever is politically right, but the 
right thing for the Nation.
    General Myers. Let me just add, I think the way I look at 
it is, the men and women we have in harm's way today, the over 
2 million men and women in uniform who have raised their right 
hand and said they will support and defend the Constitution at 
their own risk show great courage. I think that committee of 12 
needs to show great courage.
    It is going to take courage. Sometimes courage is dodging 
bullets. Sometimes courage is doing the right thing in a 
congressional setting. Those 12 have a chance to show some real 
courage here.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you all for being here.
    I am going to try to bring us back to what this committee 
normally does and deal with defense issues. Ranking Member 
Smith alluded to the fact that many on this side of the aisle 
are a little reluctant to raise revenues or tax the American 
people more. And he is right, because it really doesn't matter 
how much new revenue you raise. If you squander it on $800 
billion stimulus packages or health-care agendas that destroy 
American businesses and jobs they created, it doesn't do us any 
good to raise the revenue.
    But the purpose of this committee is not to determine tax 
policy or Social Security and Medicare entitlements. It is to 
defend and protect the United States of America. And you three 
gentlemen have 120 years of experience between you. Over four 
decades each one of you have.
    And during that period of time, I dare say that every 
marine, sailor, soldier, or airman that got up in the morning 
and put on their uniform and looked in the mirror never 
questioned who they were or who America expected them to be. We 
expected them to be part of the greatest military in the world.
    And, secondly, you three know better than any of us that no 
matter how good those men and women who serve in our military 
may be, we must have a consistent and correct military strategy 
if we are going to be the greatest military in the world.
    The real battle we are facing is who will define who those 
men and women in our military are and who will write the 
strategy that will determine their success or failure. The 
question is, will it be bureaucrats who have stared for years 
at spreadsheets or admirals and generals who have stared for 
decades in the eyes of our enemies? Now, I know who I choose, 
but I don't know who this Congress will choose, and I don't 
know who this White House will choose.
    And I will tell you this, as I look--General Pace, you 
mentioned that we have to have two cornerstones; we have to 
have a strong military and a strong economy. And that is 
exactly what the Chinese Defense Minister said in December of 
2010 if they are going to rejuvenate China.
    And one of the things that concerned me is General 
Breedlove sat where you sat, and he said, if China says they 
are going to do something, they are going to do it. If they say 
they are going to have 300 J-20s in 5 years, they are going to 
have 300 J-20s in 5 years.
    But I look at it us--and we had a QDR this Administration 
came out with in February 2010. In 18 months, they are throwing 
it, abandoning it, walking away from it and saying we have got 
to totally change it. We have weapons programs and, you know, 
we fail to stick with them. We end up buying fewer planes, 
tanks, et cetera, or canceling the program. We came out with 
our military just months ago and said, if you find $178 billion 
in efficiencies, we are going to reprioritize and put it in 
places important in the military, and 4 months later we come 
back and say, now we are going to cut another $400 billion out.
    The Chinese right now are developing and attracting 
talented military professionals, and our professionals in our 
military have to be looking and saying, where are we going 
tomorrow? What is the future for me, for my profession, for my 
family? And the QDR independent panel looking at our QDR force 
structure says it might not be sufficient today to assure 
others that the United States can meet its treaty commitments.
    So my question to the three of you, with all this expertise 
that you have, is this: It doesn't matter in the long run 
whether we just can't afford it or whether we just don't want 
to spend the money; the risk is there if we don't do what we 
need to do to defend the United States of America.
    With the curve that you see moving with China, with their 
modernization and what they are doing, and the curve that you 
see us going in, what concerns you about the out-years in that 
curve if we don't do something and change it?
    And I would love to have all three of your comments on 
that.
    General Pace. You don't know when the date is, but there is 
a tipping point. Let me just use nuclear weapons, if I may, as 
an example.
    I was part of the discussions about reducing nuclear 
weapons, and as a member of the Joint Chiefs, my recommendation 
was, yes, that we should reduce nuclear weapons from what we 
had to what we have now. And part of that strategy was that the 
triad would be not just ground-based and air-delivered 
missiles, but that that triad would become one piece of the new 
triad, which would also include a very strong, conventional 
armed force and an industrial base that could respond to 
national emergencies. And we all were comfortable with that.
    And the Nation has funded two of those three legs. We have 
not funded the industrial base part of that. That is another 
discussion.
    There is a point--and, unclassified numbers, I think the 
Chinese have about 300 nuclear weapons. Right now, if we have 
2,200 and they have 300, they are probably not sitting there 
thinking to themselves, ``Let's spend the money on adding to 
our nuclear arsenal.'' They have plenty to do what they need to 
defend themselves, and they are probably not thinking, ``Let's 
allocate those resources.''
    There is a number someplace out there, as we come down to 
it, that they might say to themselves, ``Hmm, all we need to do 
is build a couple hundred more and we will have absolute parity 
with the United States. Let's do that.'' And you can take that 
same logic and apply it to ships and aircraft carriers, of 
which they now have one. How many are they going to build? I 
don't know.
    So, as we allow ourselves to have a smaller and less 
capable force, if we make that decision, we have to understand 
that, as we come down, we are encouraging others to strive to 
be near-peer. I believe in the long run for the Nation, when 
you look at the 20- to 30-year horizon, the cost to the U.S. 
Treasury in having a strong military that prevents wars is much 
better than having a weakened military that must respond to 
more aggressive potential adversaries.
    General Myers. Let me take a conventional--I guess you took 
somewhat conventional, but also the nuclear piece of that.
    But as I said in my opening statement, I think one of the 
things that we need to be concerned about is China's rising 
influence in Asia-Pacific, not necessarily that it is going to 
bring us to combat between the United States and China, but 
certainly there will be sparring for influence. And when you 
look at China's need for resources and the resource-rich South 
China Sea and the other nations in the region that have claims 
on those resources, then I think the best way to work through 
that in a peaceful, nonconfrontational way is to have the 
United States present in the region.
    And I think, as a smaller military, a weakened military, we 
may not be able to respond in a way that would be able to exert 
the influence to keep conflict from breaking out in a region 
over resources when you have one very powerful nation and 
several pretty small nations, actually.
    So I think it goes back to, sort of, the honest-broker role 
in the region. I think we play an incredibly important role 
there and that any diminution of our capability to do that 
would, in the end, harm our own economic prospects.
    Admiral Giambastiani. Very briefly, I think that strength 
allows us to provide a tremendous moderating influence. If you 
go through the Asia-Pacific region right now and talk to both 
diplomatic and military leaders, businesspeople, they all are 
very happy that we are there in the presence we have and in the 
numbers we have.
    And when we start doing things like significantly reducing 
nuclear weapons and the rest, or when we allow proliferation to 
occur, what happens is they lose that reassurance. And then you 
hear talk of allies thinking that they need to go nuclear, if 
you will, and the rest. Those are not reassuring for long-term 
security.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you.
    Gentlemen, thank you very much, all of you, for being here 
and for your long years of service.
    I am pleased that you actually spoke--I think all of you 
spoke at one point or another about our families, and I think 
that is a very good message to send. We know that we really 
have been a military at war and not a Nation at war. And I 
think, more than anything else, our families have felt that. 
And in survey after survey, they noted that they didn't believe 
that the American public really understood, I think, the 
sacrifices they have. So I appreciate the fact that you have 
all mentioned that because you have been dealing in so many 
different levels over the years.
    What I would like to ask you about is really in line with 
some of the prevention that you just mentioned, particularly, 
is the whole-of-government approach that probably was not well-
developed, I would think, during your time of leadership.
    And I wonder if you could comment on that and if you 
believe that we have a more coherent strategy in using all the 
tools of Government today, and where you see that perhaps that 
is not being used as well as it should, and where we have 
gone--I think, not understood how we might use it in the 
future. Would you comment on that?
    General Myers. I will try.
    This is an important point for me. I think my time as 
Chairman was frustrated by the fact that this country had 
difficulty harnessing all our instruments of national power to 
focus on the pressing problems. And the pressing problems, of 
course, I was confronted with: Afghanistan and Iraq; others, as 
well.
    James Madison would be proud. Sometimes we are not too well 
organized and we can't bring things to bear in our government. 
We are just more inefficient. So James Madison would be proud. 
At the same time, when our security is at risk, I think you 
need to make some changes.
    It is a very--I have seen this serving in the Clinton 
administration as both assistant to the Chairman when President 
Clinton was in office and then as Vice Chairman, and then 
Chairman under President Bush. I have seen two different 
Presidents struggle with, how do you focus our instruments of 
national power? And if it is a multinational effort, how do you 
focus other instruments of national power?
    And just to be clear, I am talking about the military 
instrument, diplomatic-political instrument, the economic 
instrument, and, I would add, the informational instrument of 
power today because I think information plays a different role 
than it--a more important role than it ever has in the past. 
How do you bring all those to bear on the problem? And it is 
imperfect.
    I think it starts at the strategic level. I don't think we, 
as a Nation, develop a cohesive strategy, in many cases. The 
Defense Department might have one piece, State might have 
another, somebody else might have another. Pulling all that 
together, you need somebody who is responsible and held 
accountable. And it can't be the President. The President has 
got lots of things to worry about.
    And I think this is a real issue. And I don't think we--I 
think we are probably better today, but, you know, there have 
been other commissions and think-tanks and groups that have 
said, how do we reorganize ourselves since the way we are 
organized for national security comes out of the National 
Security Act of 1947, which means we are perfectly organized 
for World War II. Not quite true because it has been modified 
several times, but it still kind of has that cold war, 
Clausewitzian view of conflict. And today we are much more in 
the Sun Tzu, in my view----
    Mrs. Davis. Uh-huh.
    General Myers [continuing]. Mode of conflict, and maybe we 
need a little different apparatus to handle that.
    So I found it a frustration when I was Chairman, and I 
think it is probably still an issue in this country. And it is 
just the way we are organized to deal with it.
    And just the last thing--I know I have taken too much time 
here, but the last thing I would say is that the war on 
terrorism, the war against violent extremism, the way you keep 
men and women from wanting to join jihad can't be solved by our 
military alone. It needs those other instruments of power, in 
my view.
    And most of the problems of the world that we deal with 
that are security issues are not just military issues. There 
are other instruments of national power, as well.
    Mrs. Davis. Uh-huh. Thank you.
    General Pace. It took the Congress of the United States in 
the 1980s to come up with the Goldwater-Nichols Act that 
directed your military to learn how to share our toys and play 
together in the sand. And because of that, your military is 
enormously more powerful and efficient and effective than it 
would have been had we been left to do it the way we had always 
been doing it.
    I would recommend--and this is a whole other hearing, but I 
do believe it deserves a separate hearing--I would recommend 
that the Congress consider a Goldwater-Nichols-like act for the 
interagency. Take everything that was decided in Goldwater-
Nichols and see how you can apply it to relationships between 
State, DOD, Treasury, et cetera.
    I will save you my 45-minute presentation on that, ma'am, 
but the bottom line is----
    Mrs. Davis. There are some, General, who might feel that we 
are doing a lot more of that today, but it sounds like you are 
saying we have to look at it.
    General Pace. We are doing much better, but it is going to 
take the energy of Congress and the Administration to change 
some of the laws of the land to allow us to do things. Right 
now, your military does things because we are the only ones who 
can, who have the authority. And sometimes we are a very blunt 
instrument when what we need is a scalpel.
    Mrs. Davis. Thank you.
    The Chairman. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman.
    And, again, thank you all for being here today and for your 
distinguished service throughout your lifetime to our Nation.
    Recent budget pressures within the Department of Defense 
have resulted in greater awareness of the increasing costs of 
military personnel programs, to include military compensation, 
health care, and military retirement. The Defense Business 
Board recently declared the military retirement system 
unaffordable and proposed a plan that would convert the system 
from a defined benefit plan to a defined contribution plan. 
Benefits would vest at 3 to 5 years, as opposed to 20 years in 
today's system, and would not be payable until age 60 or 65, as 
opposed to immediately upon retirement like in today's system. 
Obviously, this would be a very significant change in the 
culture of military retirement.
    Having served at the most senior levels of military 
leadership, what is your opinion as to whether or not we have 
arrived at the point where reform of military retirement is 
necessary? Is the proposal of the Defense Business Board the 
right solution to replace the 20-year retirement that has been 
so successful in peace and war in maintaining an All-Volunteer 
Force? And is retirement an area, in general, where we should 
be looking to make defense cuts?
    Admiral Giambastiani. Dr. Heck, I am going to go back to my 
written statement and I am just going to read you a portion of 
it, because I addressed that. I am not a fan of simply using 
the Defense Business Board approach, and there is a variety of 
reasons, and I think my statement will tell you that.
    But in one of my recommendations, I said, ``I believe 
Congress, working with the Administration, should stand up a 
panel to carefully examine military benefits.'' This is 
compensation, health care, retirement and the rest. And I 
believe that there is room to examine those benefits, but such 
an examination should be comprehensive, thoughtful, employ 
significant grandfathering of provisions, with the ultimate aim 
to preserve the vitality and sustainability of the All-
Volunteer Force, which is a key asymmetric advantage. As one 
who served during both the draft era and then the All-Volunteer 
Force, our military today is far better than anything I ever 
served in.
    And I would just tell you, I understand from talking with 
the senior leadership that the single most repeated question 
that is going on out in the field is, what are you doing with 
my military retirement? These are combat people who are forward 
deployed.
    So before you run off and take somebody's suggestion 
somewhere, there are a lot of hearings that this committee and 
Congress needs to deal with, because this is an important 
issue, and the reason why we have such a fine military is what 
you have built here. Does that mean we can't make some changes? 
No. It just means that you need to do it very carefully, from 
my perspective.
    Thank you.
    General Pace. I think, sir, we also have to be very 
conscious of unintended consequences. If you give me, as a 
military guy, an opportunity to have the kind of retirement 
that, at the 5-year mark, 7-year mark, 12-year mark, I can walk 
away, and the only difference between what I have when I walk 
away and what I could have had if I stayed is the multiple of 
the succeeding years, today's system, one of the benefits of it 
is that it means that for those who stay, when they are at the 
12-, 14-, 16-year mark, we know they are going to stay until at 
least 20.
    They are very, very talented people. We don't want them 
walking out the door. So we want to be careful that if we look 
at the system that we don't have the unintended consequence of 
our most capable individuals having the door opened up for 
them, so to speak, number one.
    Number two, we recruit individuals, but we retain families. 
And as I have mentioned here today before, our families are 
serving this Nation, as well as the individual service member, 
and they are under a great strain. And the message that we send 
them about the value of their service will be very strong 
depending upon what this committee and the Congress decides to 
do about paying benefits.
    I am not trying to put a stake in the ground. I don't mean 
that. We should be discussing it. But we need to understand 
very clearly that whatever the decision is is going to be a 
very strong message to our military families about the value of 
their contribution to the Nation. And I think we need to 
approach that very, very deliberately.
    General Myers. I think we can underestimate the discussion 
now that is out in the system of these proposals. I think that 
there are a lot of our troops and their families that are kind 
of worried and wondering what is coming next.
    I don't have the answers to all those. I think the Joint 
Chiefs of Staff, the Service chiefs and the Chairman and Vice 
Chairman, would be excellent witnesses to talk and describe 
about the pluses and minuses of a 401(k) system versus our own.
    Just to tag on just for a second, I think we built a system 
that encourages people to stay to 20 years because there is a 
20-year retirement. The reason so young is we work them pretty 
hard for 20 years; we put them in harm's way. The military has 
got to be, basically, a relatively young force, so that seems 
to make some sense.
    And in the current system, you have some predictability in 
terms of retention and building your force structure, where you 
don't have all privates and no corporals and no sergeants. I 
think there would be unintended consequences, perhaps, to the 
current 401(k). The Services can probably talk about that. 
Maybe there are some surveys they have done and focus groups 
that would give you a better sense of that.
    But we have built a system for a specific purpose. It can 
always be relooked at; that is a fair thing. Whether this is 
the right answer or not, I don't know, but I bet the Services 
have thought about it already.
    Dr. Heck. Thank you, Mr. Chairman.
    The Chairman. I received a call last week from a 
constituent who is--I think he has 12 years in, and he is 
looking at reenlisting and wanted to know from me what he could 
plan on for his retirement, should he do it or should he not. 
That is out there, and it is very serious.
    Yes?
    General Pace. Mr. Chairman, may I have just 30 seconds? 
Because a very important point that I should mention is, 
whatever the retirement system is, from where is the money 
going to come?
    I participated in the Thrift Savings Plan as a volunteer, 
and I thought my money was going out of my paycheck into, at 
the time, a Barclay's-run investment fund. When I retired, I 
asked to have my money back, and I got my check from the U.S. 
Treasury. And I didn't understand that.
    So I worry that the current Thrift Savings Plan and perhaps 
some other retirement program might be another Social Security 
account, where you take--you take Pfc. (Private First Class) 
Pace's money and you spend it someplace else and you give him a 
piece of paper that says, ``We owe you this amount of money.'' 
I would not subscribe to that for military retirement.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here.
    You know, this hearing is about 10 years after 9/11 and 
what is the future for the military. And you have all used the 
word ``strategy,'' and you have all said that, you know, how, 
for example, military spending and all has to be tied to 
strategy.
    Now, my question is, the word ``strategy.'' I am not sure 
at 9/11 that we were a military that was ready for what we are 
facing in Iraq and Afghanistan. I am not sure that when we talk 
about strategy in a very broad and generic way, whether we 
recognize how different and complex, for example, the Pacific 
is. You know, if you were to look at China, you probably would 
use a conventional strategy; or North Korea, you would probably 
look at a more conventional type of military strategy. But when 
you start to go to the South Pacific and you look at 
Philippines and all of the other areas where you have Al Qaeda 
presence, you may look at something like counterterrorism or 
this word ``counterinsurgency''--and I am still not quite sure 
what the difference is. But we have all of these different 
strategies.
    So how do we prepare for the future when we have such, in 
my opinion, diverse types of arenas that we have to contend 
with, for example, even in the Pacific itself? So, any one of 
you want to tell me how you then apply that to where we sit, 
which is, okay, how do you budget based on the strategy that 
may have three or four different heads?
    Thank you.
    General Pace. So, as best I remember, in the late 1990s, we 
were looking at and budgeting for the potential of perhaps 
having to go to Iran and having to go to Korea as two possible 
places where your military would have to be employed. And we 
looked at the war plans then and the kinds of skills and 
equipment that would be needed to go to those two countries as 
examples.
    As has always happened and seems to always happen, we ended 
up going to Afghanistan or someplace we hadn't been thinking 
about. And we sure as heck had not been thinking about 
Afghanistan. But the fact that we did not have correctly where 
we would have to go did not mean that we did not have correctly 
the kinds of capabilities that we would need to go wherever 
needed. And it was the plan for the possible Irans and the 
possible Koreas that gave us the equipment, the skills, the 
training that allowed us to go to Afghanistan as quickly as we 
did.
    So you are absolutely right, ma'am, to say that there is a 
plethora of things that can happen out there, each of which is 
unique. But there are some fundamental similarities amongst 
all: the deployments, the size of the force, the speed, 
precision, interoperability, intelligence, the technical pieces 
of this. All of those are common threads that you can work on, 
train to, and fund so that, wherever you are called on, you can 
go do what you need to do.
    Ms. Hanabusa. Before everybody else--General Pace, I 
understand that. However, one of the issues that we contend 
with is end strength. So I think end strength, if anything, is 
going to be defined by the, quote, ``arena'' that we are 
focusing on. And that makes the decisions, and that is what we 
are faced with.
    So I will just toss it out to--I saw everyone else reaching 
for their mics, so please.
    And after this I yield back, Mr. Chair.
    Admiral Giambastiani. If I could just add, General Pace 
talked about these plans. It is the process of planning--and I 
won't go through defense planning guidance and start naming all 
of the things that happen inside the Department of Defense, but 
it is this planning process that gives you the construct and 
provides the capabilities that you need to go after a certain 
set of scenarios.
    And as we said already, there are many surprises out there. 
There will always be surprises. And, hopefully, you can do them 
as lesser included cases in that overall planning process. I 
think General Pace and I are saying the same thing in two 
different ways.
    General Myers. Just to tag on to what they both said, but I 
think in terms of our planning, what General Pace is getting at 
is, you know, if you have a set of capabilities, you can scale 
those capabilities.
    So when we had to go to Afghanistan and Iraq, what we 
scaled--one of the force elements we scaled up was our Special 
Operations Forces. So they have been the beneficiary of more 
manpower, more and newer equipment, and so forth. And if you 
have a military that can do a variety of tasks, you can scale. 
It takes you time. There is risk in that, and we found that 
out. There certainly is risk. But you can't afford to have it 
all ready at a moment's notice.
    I would just say, to go back--I think you were saying or 
talking strategically. You know, this all ought to stem from 
our vital national interests. At least in the executive branch, 
define your vital national interests. Out of that comes your 
national security strategy, and out of that comes your military 
strategy. It finally gets down to your military strategy. And 
that is the construct at our war colleges and so forth people 
follow.
    And as we have talked about in this hearing, sometimes the 
urgency of our issues--the budget issue here, in this 
particular case--you know, we don't go through that construct. 
We just kind of get down to the budget, and then we hope that 
whatever is left will trickle back up. And as you look up at 
our vital national interests, oh, yeah, we can support those, 
whatever they might be, in Asia-Pacific or wherever around the 
world.
    So I would just remind people that there is really a 
construct that those that work in strategy try to follow. It is 
an imperfect world. We never do it perfectly.
    Mr. Wittman. [Presiding.] Thank you, Ms. Hanabusa.
    I would like to go now to the gentleman from Florida, Mr. 
West, for 5 minutes.
    Mr. West. Thank you, Mr. Chairman.
    And to the distinguished panelists, great to see some of 
you all in this uniform and not the previous uniform.
    One of the things that we have talked about is the strategy 
aspect. And this 21st-century battlefield is very different, 
and the enemy definitely has a vote. But when I look at getting 
away from a forward-deployed military and maybe going to a 
power-projection type of military--and we look at some of the 
things that are affecting us right now, where, in the last 20 
years, we have gone from 546 Navy vessels down to 283. We look 
at--our F-15 and A-10 platforms are starting to show some signs 
of wear and tear, as well as our F/A-18s. And also we talked 
already about the five and six times that we have seen some of 
our soldiers and marines, especially, going over to these 
combat zones.
    So, when we talk about defense cuts, I want to make sure 
that we are not so much focusing down the operational level and 
below, to the tactical level, because I think that is so 
important.
    But if we look at what we did with JFCOM [Joint Forces 
Command], is it possible for us to look at our headquarters and 
see a means by which we can streamline some of these 
headquarters? Maybe they are, you know, once again looking at 
that Clausewitizian-type of structure, and we can make it more 
functional to, like General Myers said, more of a Sun Tzu-type 
of approach that really is in concert with the 21st-century 
battlefield.
    So your thoughts on how we can, you know, streamline some 
of the headquarters that we have here in our military?
    General Myers. I will take a stab at that because I have 
been, I guess, around long enough and participated in other 
cuts to our--what we call our management headquarters. They are 
always painful.
    I don't have a good baseline today to tell you where our 
headquarters are. Can you streamline? Always. The question is, 
okay, what are the risks again? We have streamlined our 
headquarters to the point that, in 2001, after 9/11, when we 
asked CENTCOM [Central Command], ``Okay, start thinking about 
Afghanistan; we want you to give the President some options,'' 
we had to augment his staff. I don't know how big it grew. I 
can't remember the numbers. But I bet the staff down there was 
two to three times, maybe more, larger than the staff he had 
sitting there before 9/11, because he didn't have the staff to 
do the job.
    So I can remember in the--I think it was in the '90s, in an 
effort to be more efficient, we said, well--somebody, some 
panel, civilian panel said, ``Well, we don't need all these 
cooks in the military. Why do you have all these cooks? You can 
hire cooks.'' Well, you can, except when you are in Fallujah 
and the troops are hungry and there is no firm--and artillery 
shells are coming in, there is no firm willing to kind of go do 
that, you know, it is nice to have some cooks in the Army or 
the Navy or the Air Force or the Marines that say, hey--you 
know, they will go until you can get, maybe, a situation 
stabilized.
    So I think there is always a risk to these sorts of things, 
and that is what the question ought to be. Okay, we would like 
you to cut management headquarters 10 percent; tell us the 
risk. And I think people now have the history, they can, 
especially in the last 10 years, can tell you what that risk 
might be.
    Admiral Giambastiani. I would just suggest not to focus 
solely on the military side of this. The uniform side is what I 
am talking about. We have some pretty sizable headquarters 
staffs with pretty sizable numbers of civilians. And those 
numbers have grown pretty dramatically here over the last few 
years. And my view is that we ought to look very carefully at 
them because the last time--we need our professional civilian 
workforce in the Department of Defense. The question is, how 
much of it do we need, since they are not toting rifles. They 
help us develop the rifles. They help us, with industry, 
produce the rifles, but the question is, how many do you need?
    And I think that, frankly, a good look at the civilian side 
would be also very helpful in this whole process.
    General Pace. And there are definitely efficiencies to be 
had in headquarters, sir, you know that from your experience. I 
mean, of course, your natural enemy was next higher 
headquarters, anyway, so it depends what level you are, depends 
on how you see a particular staff. But as we do this, the Joint 
Forces Command example is one that we ought to take a very hard 
look at and see how it plays out. As best I know, the Joint, 
the J7 on the Joint Staff, which used to be a one-star, two-
star job, is now a three-star job, and he now has 1,500 
individuals inside of J7 who used to be Joint Forces Command. 
So I am not quite sure, did we simply move the deck, chairs on 
the deck, or have we, in fact, gotten some kind of 
efficiencies? I am not in place now. I haven't been in the 
building in 4 years in a job, so I have got to be careful how I 
say that, but I do believe that sometimes this can be a whack-
a-mole contest if we are not careful.
    Mr. West. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wittman. Thank you, Mr. West.
    I would like to recognize for 5 minutes the gentleman from 
California, Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    Just a couple of preliminary comments here. A paper written 
by--a draft--Captain Porter and Colonel Mykleby suggest that 
our fundamental strategy is out of place. They write, ``It is 
time for our military to evolve from a strategy based on 
containment to a strategy focused on the sustainability of our 
security and prosperity in a dynamic and uncertain strategic 
environment.''
    And then another article written more recently or recently 
by Larry Korb, Laura Conley, and Alex Rothman, ``A Return to 
Responsibility: What President Obama and Congress Can Learn 
from Defense Budgets of Past Presidents,'' in which they write, 
still keeping our military budget at the Reagan administration 
level, the peak Cold War levels of approximately $580 billion, 
and bringing the defense budget down to levels that existed in 
Eisenhower, Nixon, Bush, Clinton would require a $250 billion 
to $300 billion annual reduction.
    And finally, a fellow that I have come to respect more and 
more as the years go by, Eisenhower, in his farewell address, 
he wrote of the military industrial complex and the power that 
it has and the problems that it can present. Prior to that 
speech, he gave a speech in 1953 that said, and I quote this, 
``every gun that is made, every warship launched, every rocket 
fired signifies in the final sense a theft from those who 
hunger and are not fed, those who are cold and not clothed. 
This is a world in arms. This world in arms is not spending 
money alone; it is spending the sweat of its laborers, the 
genius of its scientists, the hopes of its children. This is 
not a way of life at all in any true sense. Under the clouds of 
threatening war, it is humanity hanging from a cross of iron.''
    We need to think deep thoughts around here. These three 
papers, one by current military officers, who are suggesting 
that we need to rethink how we exercise our power in this 
uncertain and very changing world; another writing about past 
military expenditures and whether we can make significant 
reductions today and still maintain our security; and finally, 
the words of perhaps one of the most famous generals in 
American history and Presidents, when he talked about how the 
role of the military and what it ultimately means.
    In that context, we are now, perhaps because of the deficit 
and the concerns that are present in it and the sword of 
Damocles hanging over most of our programs, we are in a 
situation where we can and are probably forced to rethink, and 
in that context, these three papers and comments I think are 
well worth it.
    I would just like to hear your reflections on those three 
points or philosophies, and I will note that I guess all three 
of you are currently involved in the military industry in one 
way or another.
    Mr. Myers, and then we will go down the table.
    General Myers. The first two papers you referred to, I am 
not--I haven't read the articles, so I am not sure I can 
comment on them. Of course, President Eisenhower's comments are 
well known and well understood I think.
    I wonder what President Eisenhower would have done in New 
York City on 9/12/2001, what his view would have been at that 
time towards our security. And I think our view coming out of 
World War II was one thing. I think our view in the Cold War 
toward our overall economic prosperity, I think we found a way 
to do what I think President Eisenhower thought we couldn't do. 
And that is before World War II, we didn't have a large 
standing Army. Since World War II, we have. That was a 
completely different construct for the American people to 
understand. But I think people understand the benefit of having 
a large standing Army that can provide that security in 
peacetime as well as in times of in conflict. So I think the 
times have changed around that comment. They are still clearly 
dangers that he articulated.
    Mr. Garamendi. We are nearly out of time.
    General Myers. Okay.
    Mr. Garamendi. Thank you for your comment. I hate to cut 
you off. I would love to discuss this for several hours with 
all three of you gentlemen.
    Admiral Giambastiani. I would just quickly say that General 
Myers asked the right question. If I look at President General 
Eisenhower, if you think about it, he is used to mass. He was 
used to watching and dealing and operating in World War I and 
World War II with huge numbers of people. Today, suddenly, we 
have groups, not states, who want to create mass casualties 
with small numbers of people. It is a very different situation.
    Number two, on the papers you mentioned, I haven't read 
them. I have just read reviews of them, and I would just tell 
you that I think in the military, we try to encourage our 
people to write and think and debate so that we can have these 
discussions as we work through strategy. And I would encourage 
that to continue to happen.
    General Pace. Absolutely agree on the strategy piece. We 
started this conversation and I think we should end it when we 
do end it on strategy, strategy, strategy. What do you want 
your military to do? And the young captains and majors today 
and the sergeants, they have got years of combat experience. We 
have an Armed Forces now that has an enormous amount of combat 
experience. We should be listening to them from their 
perspective about their part of the strategy.
    I mean, how can you fault what President Eisenhower said? 
Every dollar spent on war is a dollar that could be spent 
someplace else. The bottom line becomes at what level do you 
become a not-free nation? So I agree with that. I mean, the 
casualties at Normandy on one day in World War II are 
unfathomable in today's environment.
    Mr. Garamendi. I would love to have you three gentlemen in 
my office for several hours to talk through these things. These 
are profoundly important issues as we rethink and deal with the 
issues that are before us in this Congress, and particularly in 
this committee, which concerns such a large part of the Federal 
budget. Thank you so very much.
    And for the additional time, Mr. Chairman, I thank you.
    Mr. Wittman. Thank you, Mr. Garamendi.
    With that----
    Mr. Young. Thank you, Mr. Chairman. Sorry, I wasn't 
recognized yet. Let me--go ahead, Mr. Chairman.
    Mr. Wittman. Please, please. I would like to recognize for 
5 minutes the gentleman from Indiana.
    Mr. Young. I am so excited about this topic. Thank you, Mr. 
Chairman.
    A strategy-based approach to our military spending. This 
comes up time and again. It is something that, since I was 
sworn in, in January, I have heard from a number of policy 
experts, uniformed personnel, some of my colleagues here in 
Congress, yet we continue to talk in terms, we benchmark 
current military spending against historical military spending. 
That may be of some use, and perhaps you want to speak to that 
later. I don't find that a particularly useful construct as we 
are thinking about strategy-based military spending. I also 
understand that there are implications on our economy, on job 
creation. As we think about reducing military spending, we need 
to continue to ensure we have some base within our economy 
where we can develop the technologies of tomorrow. Nonetheless, 
I think that is overstated sometimes. Maybe for parochial 
reasons.
    So how do we develop this strategy-based approach? Well, 
first, we need a robust strategy, as I see it, coming out of a 
robust strategic planning process, and we already have some law 
in place, as you know. Goldwater-Nichols requires the President 
to annually submit his report on National Security Strategy. It 
seems to me that this could be improved. Perhaps Congress needs 
to act to actually require the executive branch to prioritize 
among various national security objectives, and then we need to 
specifically, one would think, assign responsibility to 
specific agencies for achieving each of these different 
national security objectives.
    Then we have the QDR process. Presumably this ought to be a 
process through which we challenge preexisting thinking. We 
think long term and think anew about some of the challenges 
facing us, not just sanction some existing biases within the 
Pentagon or beyond. And the independent panel commissioned by 
Congress not long ago came up with some recommendations that I 
hope this committee adopts and improves that process.
    But, you know, this all comes down to--a national security 
planning process to produce that strategy--comes down to this 
risk analysis that General Pace spoke directly about.
    I think you indicated to one of my colleagues earlier, 
General Pace, that we ought to be able to pull in the current 
Chairman of the Joint Chiefs of Staff into a SCIF [Sensitive 
Compartmented Information Facility] and press him on what are 
these trade-offs between budget savings, on one hand, and 
defense expenditures on the other.
    Now, I guess I would ask each of you gentlemen, during your 
professional lives were you aware of ever any documentation of 
these trade-offs being made, even in a classified setting? Have 
we documented where we could trade off spending on one hand and 
defense savings on the other and prioritize to each of these 
different areas? Has this ever been done?
    General Pace. There is certainly documentation about what 
possible force options you might be required to execute, if 
this is the operational availability analysis that has gone on 
now for the last 12 years. There is not a dollar sign applied 
to that. It is simply the folks on the Joint Staff for the 
Chairman doing their job, which is to tell him, if this 
happens, if this happens, if this happens, and it happens 
within these timelines, this is the kind of force we will need. 
And they mix and match that kind of like a kaleidoscope, if you 
will, of various options that might take place. And the 
Chairman uses that as he goes forward with his recommendations 
about force size based on what he is told he is going to be 
required to do from the National Strategy level.
    So all the things that you have laid out step by step are 
exactly right, but sometimes parts of this get short sheeted. 
The QDR, for example, last time was wrong. It is supposed to be 
a wide open look ahead 20 years, come back and tell us what you 
might need, but there were prerequisites put into this QDR 
process that said, you cannot have more than this, you cannot 
have more than this, you cannot have more than this. What good 
is a QDR process that is supposed to look out 20 years and tell 
you what you might need if you are told ahead of time where 
some of the limits are.
    Mr. Young. Where were those parameters set? Through 
Congress and----
    General Pace. No, no, inside the Pentagon.
    Mr. Young. Okay. How can we, through your informed 
experience, how can we improve that process?
    General Pace. To the best of my knowledge, every time you 
have ever invited a military officer over here to come see you, 
they have shown up. And they have responsibility to support and 
be very precise about the programs that are on the table.
    They have also sworn to you and they were confirmed by you, 
by the Senate, that they would give their personal opinions, 
their professional military opinions, when asked. Congress, 
when Congress asks a military officer in uniform for their 
personal opinion, they are required to give it. My 
recommendation to you would be, ask them their opinion.
    Mr. Young. Mr. Chairman, could I have an additional 30 
seconds?
    Mr. Wittman. Please.
    Mr. Young. General Pace, would you be so bold as to 
recommend specific people that we call before this committee 
and ask those personal opinions, people that might be able to 
help us do this risk analysis?
    General Pace. Sir, you already have them, you already have 
all the leaders you should have appearing before you.
    Mr. Young. Okay.
    General Pace. You have the Chairman and the Vice Chairman, 
you have the combatant commanders. My simple recommendation 
would be that there is a very powerful question you can ask 
when it comes to specific things, and you are going to get a 
very unvarnished answer when you ask them their opinion because 
they promised you in their confirmation hearings that they will 
give you their personal opinion.
    Mr. Young. Great, it is all teed up. Thank you.
    Mr. Wittman. Thank you, Mr. Young.
    I would like to recognize for 5 minutes the gentleman from 
Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, it is great to see you all again.
    You are looking very dapper in the new uniforms.
    General Pace, I remember one time about 20 years ago when 
you were my next higher at headquarters, but I am over holding 
that against you at this time.
    Look, I want to pick up on--a little bit on what Mr. Young 
was saying and others, and that is about the information that 
we get from witnesses here. You have been, all of you have been 
here many times before wearing those other uniforms, and I am 
not suggesting that you were never not telling the truth, but I 
am also fairly certain that in those other uniforms, you came 
here and you were defending the President's budget. We 
understood that. But getting sometimes really hard answers, the 
exact answers, is a little bit tough for us to ask exactly the 
right question exactly the right way to get at what we are 
getting at.
    So, for example, right now, the Pentagon, using whatever 
strategy they are using, QDR modified or something like that, 
is undergoing budget-cutting drills, and you know what those 
are like. But these are big, and they are right in front of 
them. And they are looking at numbers like, what if we have to 
cut $60 billion or $500 billion over 10 years? And what sort of 
cuts are we going to make? And I am worried that sometimes when 
those budget drills are going on and they are cutting drills 
and they turn into real cuts, I am not sure that we have an 
understanding in this committee, nor do the American people, 
about what the impact would be.
    Let's take, for example, that in one of these cuts, you 
decide to cut--Pentagon proposes, Chairman proposes, comes to 
us, you are going to cut end strengths to an earlier point, and 
you are going to cut the end strength of, I will pick on the 
Marine Corps, by 20,000, and you are going to do it right now 
over the next year to 18 months. Well, I think we know that 
would be, have a horrific effect on the Marine Corps' ability 
to do its mission. Not just on morale, but you would end up 
with imbalances and rank structures and MOSs [Military 
Occupational Specialties], but I am not sure that we are going 
to get that kind of information unless we go and ask exactly 
the right question. I happen to be picking end strength here, 
but you could say the same thing on, what if you cut this ship 
or what if you cut those planes?
    And so my plea to you is that in your new dapper uniforms, 
that you stay engaged. You are not here to defend the 
President's budget, not that your uniformed successors are 
going to be dishonest with us, but they may not be as 
forthcoming as I think we--sometimes we need some real answers, 
and so, on an earlier note, there was a discussion about the 
drill that is going on about slashing, cutting the retirement 
benefits. I am not sure we are getting, you know, sort of input 
from people in uniform. Maybe we need to get the right guy and 
ask exactly the right question, what is the impact this is 
going to have on recruiting and retention and morale. I mean, I 
know because I spent the Labor Day weekend with my favorite 
soldier and his family, and that is ripping through the Army 
Times and through the Services, and it is pretty devastating 
what it is having.
    But we need that kind of input. So my guess, I have got a 
minute left, the question is what about these budget cuts and 
what are the kind of dangers that we ought to really be looking 
at that would have immediate tough effects? Any of you.
    Admiral Giambastiani. Let me just quickly say that with 
regard to the retirement budget cuts and the rest, besides just 
bringing over the senior leadership and doing as General Pace 
has suggested, which I think you will get pretty 
straightforward answers from these leaders because they have 
been in combat here for a long time, and they are going to give 
you what they think. Field hearings are also an important thing 
to do, where you go out and talk with troops. You know, when we 
have had major events in the past, the House Armed Services 
Committee and the Senate have gone out and done field hearings, 
and they have done them with troops. And I think it is a pretty 
powerful way of hearing what they think.
    General Myers. Just to tag on, maybe not to your direct 
question, but to--you know, I think the ability to speak in an 
environment where it is a secure environment, whether we are 
secure--I think we have secured this room before, you all have 
done that before.
    Mr. Kline. Uh-huh.
    General Myers. I think that really enables a franker 
discussion than an open hearing where there are cameras present 
and so forth. You can get to some of those because a military 
person is going to be loath to say to the world, including our 
adversaries, well, if you do that, it is going to mean this 
kind of capability or this risk, and that is usually the kind 
of thing that we like to keep to ourselves and of course with 
Congress, but I think that would help a lot as well.
    I guess to your point, you know, any dramatic cuts that are 
over a very short period of time are going to have a lot more 
impact on the Services, and you know that, you said you were 
with your favorite soldier. I guess that is your son or son-in-
law. You know, the more uncertainty out there in the system, 
they have enough uncertainty in their lives--when I am going to 
deploy next, am I going to live through this, what happens if 
something happens to me----
    Mr. Kline. Right.
    General Myers [continuing]. Who is going to take care, the 
whole--all that sort of thing, and this is just one more level 
of uncertainty which hits in the pocketbook, which is--we ought 
to be really careful, given that we are a Nation at war, a 
military--or somebody said, but a Nation at war, that when we 
do things, we do them in a way that just doesn't shock the 
system and cause either more uncertainty or more hardship on 
our troops.
    Mr. Kline. Thank you very much. I have gone over--oh, yes?
    General Pace. Sorry, sir. If I might just have 30 seconds. 
If I could just buy one precise weapons system, if I only had X 
dollars left, I would buy PFC Pace and his family, and we need 
to be very, very careful. These families have sacrificed and 
sacrificed and sacrificed. They have done so willingly, but 
they have done so knowing that the American people and the 
Congress of the United States has been supporting them.
    The instant that we tell them we don't love them, we are 
going to have a quick unraveling of our All-Volunteer Force 
because we are riding them hard, putting them away wet, and 
they need to know that we are going to take care of them. That 
does not mean that things should not be on the table, but if 
you are asking me what budget things to worry about, in 
addition to all the other strategies, what executes at the end 
of the day is PFC, Lieutenant Major Pace and their families, 
and we need to make sure we take care of them.
    Mr. Kline. Well said. Amen.
    I yield back.
    Mr. Wittman. Thank you, Mr. Kline.
    I would like to recognize for 5 minutes the gentleman from 
Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you all for your service to our country, and my 
question has to do with nuclear modernization.
    Many of the Senators who voted for that treaty did so on 
the assurance by the Administration that we would be devoting 
more dollars in the future to modernizing the aging nuclear 
stockpile, but almost before the ink was dry, that funding is 
becoming a target for budget cutting because of different 
pressures from different sources.
    What concern do you have about our lack of modernization if 
we don't follow through on what the Senate and Administration 
had agreed to was necessary and we in the House, many of us 
agreed to as well, needed to be done to modernize the nuclear 
stockpile?
    Admiral Giambastiani. Let me quickly take that one and just 
tell you that one of the problems with nuclear weapons is 
that--and I will use the term binary--you either have them or 
you don't have them. And when you have them, you really do have 
to take care of them and fully fund them. And there were a lot 
of debates and discussions, Perry-Schlesinger Commissions and 
the rest, who looked into these issues. And all of them 
unanimously talked about keeping these weapons fully up to 
speed and up to date. And the problem is a nuclear weapons 
safety issue. There is a whole variety of things, reliability 
of weapons and the rest.
    So I would just tell you that it is very important to do 
what the country said it was going to do when that treaty was 
signed.
    Mr. Lamborn. Thank you.
    Either of you two other gentlemen?
    General Myers. Right. Let me--I think you only have nuclear 
deterrence if you have a credible nuclear force, and I think 
this has been a question that has gone on now for over a decade 
about the safety and the security and the effectiveness of our 
nuclear weapons. We can't forget the safety piece here because 
you would worry about that in your home State, I think. So we 
are only credible if we keep them safe and secure and 
effective. Otherwise, adversaries very quickly figure out they 
aren't a credible force and may take risks that they wouldn't 
otherwise take.
    So I think it is just not the modernization of the 
stockpile itself; it is the infrastructure in DOE [Department 
of Energy] that helps make all that possible, and I confess I 
have not followed that debate or the funding that has gone into 
DOE, but when I left the office as Chairman, there were lots of 
promises made, but the DOE infrastructure was still fairly 
fragile. My assumption is it is still fairly fragile, and that 
is not a good place to be because our whole, the whole theory 
for our nuclear posture reviews and the plans for reductions 
that come out of that is that we will have this inventory that 
will be credible, and so all of that goes out the window if you 
don't have a credible inventory in my view.
    General Pace. This is an unclassified hearing, so let me 
just recommend if I may, sir, a couple questions to ask in a 
classified setting. Number one, how many weapons do we have?
    Mr. Lamborn. How many what?
    General Pace. How many weapons do we have?
    Number two, if we had to, how long would it take to design 
a new piece or part of one of those weapons? How long would it 
take our industrial base to be able to respond to stimuli that 
says we need to fix or replace all or part of one of our 
weapons?
    Number three, how many times a year can we take our active 
weapons, take them apart, clean them up, satisfy ourselves that 
they are in working condition, put them back on the shelf?
    Those kinds of questions, I believe, will lead you to the 
answers you are seeking for the status of our industrial base.
    Mr. Lamborn. Okay, thank you.
    And lastly, do either--any of you have concern over the 
shift in focus on missile defense in Europe? We cancelled the 
third site and are now going to a phased adaptive approach in 
Europe, using more reliance on Aegis Destroyers, for instance. 
Do you have any concerns about that shift in focus?
    General Myers. I have got to tell you, I am not 
sufficiently up to date on that issue to offer an informed 
opinion.
    Admiral Giambastiani. I haven't studied it carefully, but I 
will just give you one issue that I think is important related 
to it, and that is, I don't think we worked very well with our 
allies when we announced this and started to execute the 
strategy. And the reason why I bring that up is you certainly 
don't reassure your friends when you reverse course without 
even asking them to participate with you in that discussion.
    Mr. Lamborn. Anything else, General Pace?
    General Pace. I would just emphasize, it is not good to 
play Lucy in football with your friends.
    Mr. Lamborn. Thank you all.
    Mr. Wittman. Thank you, Mr. Lamborn.
    Gentlemen, again, I want to thank you for taking time to 
come to this hearing to provide your insights into the 
challenges ahead.
    I do want to finish with a couple of questions of my own.
    And General Pace, I will begin with you. In looking at our 
Marine Corps and looking at the challenges that they have 
faced, I think we have seen clearly that there is a need for an 
expeditionary force. We have heard that from former Secretary 
Gates, from former Commandant Conway, from Commandant Amos 
today, but looking forward, and we have certainly seen that 
also with the need for humanitarian aid and helping out through 
disasters; certainly our Marine Corps has been there in the 
forefront.
    Let me ask this, as you look into the future, how do you 
see the Marine Corps functioning post-Iraq and Afghanistan, and 
how can the Marine Corps effectively reset if it leaves 
Afghanistan after 2014? And another question is, can the Marine 
Corps sustain an on-call at-sea expeditionary force while at 
the same time being engaged in heavy combat operations just as 
we see today? Because we see a world that is pretty dynamic, 
both with asymmetric threats and with conventional threats. I 
want to get your perspective on that about your projection 
about where the Marine Corps sees its challenges in the future.
    General Pace. I will answer your question, sir, but as you 
know, I was chairman of the Joint Chiefs and I would not want 
my response about the Marine Corps to have anybody on Active 
Duty or whoever worked around me thinking, a-ha, he was a 
closet Marine all the time. So you have asked me Marine 
questions, and I will give you Marine answers.
    Mr. Wittman. Yes, sir. Yes, sir.
    General Pace. But my focus was on the Joint Force.
    Mr. Wittman. It was, it was. I just wanted to get your 
perspective as one element of the total force that this United 
States projects.
    General Pace. And I appreciate that, sir.
    And General Jim Amos, obviously, is the Commandant of the 
Marine Corps and is the guy who has the detailed answers to 
your questions, but the Nation, in the eyes of the Marines, our 
Nation has always relied on our Marine Corps to be the most 
ready when the Nation is least ready, so Marines are mentally 
prepared to start taking on a heavier load, to be more ready, 
to be more of the tip of the spear as the overall capacity of 
the Armed Forces goes down, if it does go down. So Marines are 
thinking to themselves right now, how do we make sure that we 
have enough amphibious ships? How do we make sure that we have 
enough forward deployment? How do we make sure that we have 
enough training? How do we make sure we have enough troops to 
do those kinds of rotations? Because, as you point out in your 
question, if you are involved in heavy combat ashore or heavily 
involved ashore, with or without combat, then you are not 
aboard ship.
    So you either have enough Marines to do both, or you start 
making the strategic choices. Marines on board Navy ships are 
one of the country's most flexible assets, and because they are 
armed and ready and can go at a moment's notice, they can go 
ashore and help with humanitarian, or they can go ashore and 
start delivering effective lethal power if they need to. So 
your Corps of Marines, I am sure, because I have been one for 
40-plus years, is sitting there right now figuring out, how can 
we be even a larger part of what the Nation leans on as we go 
forward?
    So Marines will be coming to you saying, you are going to 
get this percent of ground combat for this percent of the 
budget. You are going to get this percent of air power for this 
percent of the budget. And the numbers from the Marine Corps' 
standpoint is always that our percent of air, ground, and other 
power is all smaller than the amount of money we ask in the 
budget compared to the overall budget. So I am not sure if I 
answered your question, sir, but I know your Marines are 
leaning forward and anxious to stay on the tip of the spear.
    Mr. Wittman. Well, that did, General Pace, and I appreciate 
that.
    I do have one additional question for Admiral Giambastiani. 
In the strategic sense on the Navy, looking at what we are 
facing in the future, obviously, we look at the metric from the 
conventional sense, but we also see a world around us that is 
changing. We see an asymmetric threat. We see nonstate-
sponsored extremism abounds throughout the world. Within that 
context, where do you see our Navy evolving in the years to 
come? We all talk about the metric of 313 ships and making sure 
that we have that force to project influence around the world, 
but where do you see within this newer context the Navy going 
in years to come?
    Admiral Giambastiani. I guess in a larger sense, I would 
say that the Nation, the United States is a maritime power, and 
it is an aerospace power. And what you see, for example, on the 
Chinese side is that they understand that navies make a huge 
difference, which is why they are building a navy, to be a more 
global player.
    I think that our Navy and our naval capability is going to 
have to remain robust for years to come. It gives us tremendous 
flexibility to both go into an area and withdraw rapidly, to 
bring tremendous power, air, Marines, everything with it, just 
as our aerospace power does. So I will just tell you in general 
terms, that is where I see us staying, I hope, and going.
    Mr. Wittman. Well, thank you.
    I just returned back from visiting our Pacific partners 
last week, and I heard loud and clear from them. In fact, one 
of the members of the Japanese Diet asked me specifically how 
we felt about the Chinese acquiring an aircraft carrier. So 
they are concerned about it, and they see the importance of a 
naval force and wanted to get our perspective on it. I 
appreciate your perspective.
    Gentlemen, thank you so much for taking your time to join 
us today. Very insightful comments. We appreciate your 
perspective as this committee as well as this Congress is 
challenged with making some very tough decisions going forward, 
but ones that are critical to the national interest and making 
sure that we look out after the threats that are out there.
    And as you have heard from panel members today, it is about 
making tough decisions, but it is also about communicating 
specifically about the decisions and what risks those might 
pose for the United States if resources are taken away to a 
large extent in certain areas of the military.
    So we appreciate your perspective. That is very helpful in 
making decisions, and again, thank you all so much for your 
time today and thank you again for your service to our Nation. 
And with that, I will adjourn our hearing.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 8, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 8, 2011

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

            Military Ten Years After 9/11: Perspectives from

              Former Chairmen of the Joint Chiefs of Staff

                           September 8, 2011

    The House Armed Services Committee meets this morning to 
receive testimony on The Future of National Defense and the 
U.S. Military Ten Years After 9/11: Perspectives of former 
Chairmen and a Vice Chairman of the Joint Chiefs of Staff.
    As our Nation marks the ten-year anniversary of the attacks 
on our Nation this Sunday, we remember and commemorate the 
lives lost on that day. We also honor the sacrifices made every 
day since then by our military and their families, as our Armed 
Forces have taken the fight to the enemy to ensure our 
continued safety at home. This somber marker serves as a call 
for reflection. Therefore, the committee will undertake a 
series of hearings over the next month to evaluate lessons 
learned and to apply those lessons to decisions we will soon be 
making about the future of our force.
    With the decade mark approaching, our Nation finds itself 
at a strategic juncture--Osama bin Laden is dead, Al Qaeda is 
on its back, the Taliban has lost its strategic momentum in 
Afghanistan, and Iraq is an emerging democracy.
    Yet, with success comes the danger of complacency that will 
erode our resolve. Faced with serious economic challenges, we 
are slipping back into the September 10th mentality that a 
solid defense can be dictated by budget choices, not strategic 
ones. As members of the Armed Services Committee, our duty is 
to make sure that the choices we make regarding the Federal 
budget are dictated by our national security strategy--not the 
other way around.
    I believe the Department of Defense has already absorbed 
more than its fair share of cuts--over half a trillion dollars 
through 2021. Nevertheless, if the Joint Select Committee's 
recommendations are not adopted, an additional half a trillion 
could be taken away from our military automatically. What's 
more, the White House has told DOD to include similar levels of 
cuts in next year's budget request. Therefore, it would appear 
that regardless of what actions Congress takes, the 
Administration will propose to cut the military further.
    As Chairman of the Armed Services Committee, I have two 
principal concerns that stem from recent military atrophy. The 
first is a security issue. In a networked and globalized world, 
the Atlantic and Pacific Ocean are no longer adequate to keep 
America safe. September 11th taught us that. The second is an 
economic concern. While it is true that our military power is 
derived from our economic power, we must recognize that this 
relationship is symbiotic. Cuts to our military defense, either 
by eliminating programs or laying off soldiers, comes with an 
economic cost.
    The U.S. military is the modern era's greatest champion of 
life, liberty, and the pursuit of happiness. It is time we 
focus our fiscal restraint on the driver of the debt, instead 
of the protector of our prosperity.
    With that in mind, I look forward to a provocative 
discussion.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

            Military Ten Years After 9/11: Perspectives from

              Former Chairmen of the Joint Chiefs of Staff

                           September 8, 2011

    I would like to thank the witnesses for appearing here 
today. General Myers, General Pace, and Admiral Giambastiani 
all served for many years on behalf of our country, and we owe 
you our thanks for your service. I hope that today we can 
prevail on you again to provide us with your advice.
    I will not take too much time to belabor the point here, 
but our Nation is faced with a long-term, systemic budget 
dilemma. Simply put, revenues and expenditures are 
substantially misaligned. We don't collect enough revenue to 
cover our expenditures. Going forward, it is my belief that we 
are going to have to fix this problem from both ends--spending 
will have to come down, and we're going to have to fix the 
revenue problem.
     It is the decrease in spending, however, that most 
concerns us here today. Defense spending makes up about 20 
percent of all Federal spending and about half of all 
nonentitlement. Since 9/11, defense spending has risen, in real 
terms, somewhere over 40 percent without counting the costs of 
the wars in Iraq and Afghanistan. But it's not clear that we 
have actually gotten that much value from our spending. 
Nonetheless, like many, if not most, of our members here, I 
share the view that large, immediate cuts to the defense budget 
would have substantially negative impacts to the ability of the 
U.S. military to carry out those missions we assign them, and 
this is in fact why I voted against the recent agreement to 
raise the debt ceiling. But, and I would like to be clear, I 
believe that we can rationally evaluate our national security 
strategy, our defense expenditures, and the current set of 
missions we ask the military to undertake and come up with a 
strategy that requires less funding. We can, I believe, spend 
smarter and not just more.
    In fact, the Administration has announced that just such a 
comprehensive overview is underway, and I congratulate them for 
undertaking it. Faced with the end of the war in Iraq, the 
beginning of the transition period in Afghanistan, the death of 
bin Laden, and the prospect of declining budgets, undertaking a 
strategic review is a rational and responsible choice. We on 
this committee like to say that strategy should not be driven 
by arbitrary budget numbers, but by the same token not 
considering the level of available resources when developing a 
strategy is irresponsible and leads inevitably to asking our 
military to undertake jobs for which we do not have the 
resources.
    So my hope for this hearing is that our witnesses here 
today will help us think through the strategy changes about 
which we should think. Rather than just focus on the potential 
damage to national defense that could be caused by large and 
arbitrary cuts or coming up with imaginary numbers and asking 
the witnesses how bad they would be, we should ask the 
witnesses, how can we put together a sustainable national 
defense strategy? If you were asked, what would you tell those 
undertaking the comprehensive review? I don't believe anyone 
here thinks defense funding will stay level or increase in real 
terms in the future, so what missions should we think about 
cancelling? What can we do smarter? And what principles would 
you use to prioritize the interests in the world that we must 
defend or the threats we must defend against?
    Thank you again, Mr. Chairman, for holding this hearing. 
And thank you Generals Myers and Pace and Admiral Giambastiani 
for appearing here today.

[GRAPHIC] [TIFF OMITTED] T8462.001

[GRAPHIC] [TIFF OMITTED] T8462.002

[GRAPHIC] [TIFF OMITTED] T8462.003

[GRAPHIC] [TIFF OMITTED] T8462.004

[GRAPHIC] [TIFF OMITTED] T8462.005

[GRAPHIC] [TIFF OMITTED] T8462.006

[GRAPHIC] [TIFF OMITTED] T8462.007

[GRAPHIC] [TIFF OMITTED] T8462.008

[GRAPHIC] [TIFF OMITTED] T8462.009

[GRAPHIC] [TIFF OMITTED] T8462.010

[GRAPHIC] [TIFF OMITTED] T8462.011

[GRAPHIC] [TIFF OMITTED] T8462.012

[GRAPHIC] [TIFF OMITTED] T8462.013

[GRAPHIC] [TIFF OMITTED] T8462.014

[GRAPHIC] [TIFF OMITTED] T8462.015

[GRAPHIC] [TIFF OMITTED] T8462.016

[GRAPHIC] [TIFF OMITTED] T8462.017

[GRAPHIC] [TIFF OMITTED] T8462.018

[GRAPHIC] [TIFF OMITTED] T8462.019

[GRAPHIC] [TIFF OMITTED] T8462.020

[GRAPHIC] [TIFF OMITTED] T8462.021

[GRAPHIC] [TIFF OMITTED] T8462.022

[GRAPHIC] [TIFF OMITTED] T8462.023

[GRAPHIC] [TIFF OMITTED] T8462.024

[GRAPHIC] [TIFF OMITTED] T8462.025

[GRAPHIC] [TIFF OMITTED] T8462.026

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 8, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Impact to the land-based deterrent: The Air Force is in 
the midst of an ambitious effort to extend the life of the Minuteman 
III force out to 2030. At the same time, there are significant bills to 
be paid to operate and sustain the 450 ICBMs that are presently 
deployed (though some of these will be moved to non-deployed status or 
eliminated altogether around 2017-2018 under the New START treaty with 
Russia). Even when those reductions are implemented, they will not 
likely save significant funds, especially as the Air Force is expected 
to continue to maintain three missile wings spread across Montana, 
Wyoming, North Dakota, and Nebraska to maintain a viable land-based 
deterrent. What would your concerns be about failure to provide for the 
necessary modernization activities to extend the life of the Minuteman 
III missiles out to 2030, and if the U.S. simply ceased sustainment 
activities to the current fleet of Minuteman III missiles, as might 
happen as a result of the dangerous cuts to the Defense Department 
under the Lew Memorandum to Federal agencies or the sequestration 
mechanism of the Budget Control Act? In FY13 alone, these cuts could 
amount to almost $200 million out of a projected $566 million budget 
for Air Force ICBM activities.
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. In December of 2010, during consideration of the New 
START treaty between the United States and Russia, the President 
stated: ``I recognize that nuclear modernization requires investment 
for the long-term . . . that is my commitment to the Congress--that my 
administration will pursue these programs and capabilities for as long 
as I am President.'' If you were still the principal military advisor 
to the President, would you urge him to continue to stand by that 
commitment? Has anything changed since December of last year when the 
President made this commitment to the Congress that would make the 
modernization of the U.S. nuclear deterrent now less important?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. The so-called Perry-Schlesinger Commission stated that 
it ``recommends retention of the current triad. Each leg of the triad 
has its own value. Resilience and flexibility of the triad have proven 
valuable as the number of operationally deployed strategic nuclear 
weapons has declined. They promise to become even more important as 
systems age and if back-up systems within each leg of the triad are 
reduced.'' Do you agree with this finding of the bipartisan commission? 
If so, do you believe that continued investment in the TRIAD is 
imperative? Because of the unique role played by each leg of the triad 
to the security of the United States, what are the risks, in your mind, 
to losing one or more of those legs?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. As Chairman, you were all involved in the process of 
reporting on the reliability of the nuclear stockpile. You may also be 
aware that under law, the directors of our nuclear weapons labs are 
required to be independent and offer the Congress and the President 
their best technical judgment. Do you believe this is an important 
principle? Do you believe the directors of our nuclear weapons labs 
must be persons of integrity and unquestioned technical expertise in 
the nuclear weapons field and that they should be independently chosen 
on that basis, free of political interference?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. The 2010 NPR stated that because of the conventional 
military superiority of the United States, it could reduce reliance on 
nuclear weapons. How will significant cuts in U.S. conventional 
military power affect the assumption that we can continue to reduce our 
nuclear forces that deter attacks on the United States and its allies?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. Earlier this year, then-Secretary of Defense Robert 
Gates said with regard to a decision not to fully fund the 
modernization of our nuclear deterrent that: ``This [nuclear weapons] 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' In view of 
your previous roles at the pinnacle of the U.S. military's officer 
corps, responsible for the security of this Nation, do you believe it 
is important that the modernization plan agreed to last year during the 
New START ratification process should be fully funded?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. Extended Deterrent and U.S. nuclear weapons 
modernization: The United States is on an aggressive path to modernize 
its B61 gravity bomb, with a first production unit needed by 2017 in 
order to keep an extended deterrent deployed in NATO. A significant 
budget cut--such as that possible under sequestration through the 
Budget Control Act or the Lew Memorandum to Federal agencies, which 
asks the agencies to plan for a 10 percent cut below FY11 enacted 
appropriations--would guarantee that the United States cannot meet the 
2017 timeline. This could mean the United States would have to 
immediately withdraw its nuclear weapons from Europe, which provide the 
so-called extended deterrent. What would your concerns be about the 
U.S. simply failing to modernize its forward deployed B61 bombs in view 
of its commitment to NATO and the Obama Administration's own NATO 
Strategic Concept commitment that as long as nuclear weapons exist, 
NATO will be a nuclear armed alliance? What signal would be sent to our 
European allies in NATO by such a failure? What signal would that send 
to Russia with its several thousand tactical nuclear weapons, many of 
which are located near the borders of our NATO allies?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. According to the 2010 edition of the annual report of 
the Director of National Security on Acquisition of Technology Relating 
to Weapons of Mass Destruction, Iran continues ``developing space 
launch vehicles, which incorporate technology directly applicable to 
longer-range missile systems'' and North Korea ``continues to pursue 
the development, production, and deployment of ballistic missiles with 
increasing range and sophistication . . . [and] continues to develop a 
mobile IRBM as well as a mobile solid-propellant'' ballistic missile. 
In view of the risks these growing ballistic missile threats pose to 
the U.S. homeland, do you have concerns about the failing budget 
support for missile defense, especially missile defense of the United 
States? As you may know, the ground-based midcourse defense element of 
our ballistic missile defense system has been cut by almost $1 billion 
since President Obama came to office.
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. The Perry-Schlesinger Commission also stated that ``A 
quick survey of the potential nuclear candidates in Northeast Asia and 
the Middle East brings home the point that many potential proliferation 
candidates are friends and even allies of the United States. A decision 
by those friends and allies to seek nuclear weapons would be a 
significant blow to U.S. interests.'' Do you agree with that 
assessment? Do you believe that it therefore follows that the United 
States has to make investments in the reliability and credibility of 
its nuclear deterrent not just for itself but in terms of what assures 
our allies, many of whom have only foregone the choice to develop their 
own nuclear weapons because of their confidence in the reliability of 
the U.S. nuclear deterrent?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Turner. Former Vice Chairman of the Joint Chiefs of Staff James 
Cartwright stated that ``[W]e do have challenges around the globe with 
strategic depth and [a] lack of [nearby] infrastructure and basing . . 
. [w]e've got to have a way to address those [urgent targets] credibly 
for our deterrent postures [to work].'' That ``way'' was known as 
conventional prompt global strike. Do you support the development by 
the United States of a conventional prompt global strike capability? 
Can you offer an example, perhaps from your time as Chairman, of when 
this capability could have been useful in dealing with a threat to the 
national security of the United States?
    General Myers. [The information was not available at the time of 
printing.]

    Mr. Turner. In December of 2010, during consideration of the New 
START treaty between the United States and Russia, the President 
stated: ``I recognize that nuclear modernization requires investment 
for the long-term . . . that is my commitment to the Congress--that my 
administration will pursue these programs and capabilities for as long 
as I am President.'' If you were still the principal military advisor 
to the President, would you urge him to continue to stand by that 
commitment? Has anything changed since December of last year when the 
President made this commitment to the Congress that would make the 
modernization of the U.S. nuclear deterrent now less important?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. The so-called Perry-Schlesinger Commission stated that 
it ``recommends retention of the current triad. Each leg of the triad 
has its own value. Resilience and flexibility of the triad have proven 
valuable as the number of operationally deployed strategic nuclear 
weapons has declined. They promise to become even more important as 
systems age and if back-up systems within each leg of the triad are 
reduced.'' Do you agree with this finding of the bipartisan commission? 
If so, do you believe that continued investment in the TRIAD is 
imperative? Because of the unique role played by each leg of the triad 
to the security of the United States, what are the risks, in your mind, 
to losing one or more of those legs?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. As Chairman, you were all involved in the process of 
reporting on the reliability of the nuclear stockpile. You may also be 
aware that under law, the directors of our nuclear weapons labs are 
required to be independent and offer the Congress and the President 
their best technical judgment. Do you believe this is an important 
principle? Do you believe the directors of our nuclear weapons labs 
must be persons of integrity and unquestioned technical expertise in 
the nuclear weapons field and that they should be independently chosen 
on that basis, free of political interference?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. The 2010 NPR stated that because of the conventional 
military superiority of the United States, it could reduce reliance on 
nuclear weapons. How will significant cuts in U.S. conventional 
military power affect the assumption that we can continue to reduce our 
nuclear forces that deter attacks on the United States and its allies?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. Earlier this year, then-Secretary of Defense Robert 
Gates said with regard to a decision not to fully fund the 
modernization of our nuclear deterrent that: ``This [nuclear weapons] 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' In view of 
your previous roles at the pinnacle of the U.S. military's officer 
corps, responsible for the security of this Nation, do you believe it 
is important that the modernization plan agreed to last year during the 
New START ratification process should be fully funded?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. Extended Deterrent and U.S. nuclear weapons 
modernization: The United States is on an aggressive path to modernize 
its B61 gravity bomb, with a first production unit needed by 2017 in 
order to keep an extended deterrent deployed in NATO. A significant 
budget cut--such as that possible under sequestration through the 
Budget Control Act or the Lew Memorandum to Federal agencies, which 
asks the agencies to plan for a 10 percent cut below FY11 enacted 
appropriations--would guarantee that the United States cannot meet the 
2017 timeline. This could mean the United States would have to 
immediately withdraw its nuclear weapons from Europe, which provide the 
so-called extended deterrent. What would your concerns be about the 
U.S. simply failing to modernize its forward deployed B61 bombs in view 
of its commitment to NATO and the Obama Administration's own NATO 
Strategic Concept commitment that as long as nuclear weapons exist, 
NATO will be a nuclear armed alliance? What signal would be sent to our 
European allies in NATO by such a failure? What signal would that send 
to Russia with its several thousand tactical nuclear weapons, many of 
which are located near the borders of our NATO allies?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. According to the 2010 edition of the annual report of 
the Director of National Security on Acquisition of Technology Relating 
to Weapons of Mass Destruction, Iran continues ``developing space 
launch vehicles, which incorporate technology directly applicable to 
longer-range missile systems'' and North Korea ``continues to pursue 
the development, production, and deployment of ballistic missiles with 
increasing range and sophistication . . . [and] continues to develop a 
mobile IRBM as well as a mobile solid-propellant'' ballistic missile. 
In view of the risks these growing ballistic missile threats pose to 
the U.S. homeland, do you have concerns about the failing budget 
support for missile defense, especially missile defense of the United 
States? As you may know, the ground-based midcourse defense element of 
our ballistic missile defense system has been cut by almost $1 billion 
since President Obama came to office.
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. The Perry-Schlesinger Commission also stated that ``A 
quick survey of the potential nuclear candidates in Northeast Asia and 
the Middle East brings home the point that many potential proliferation 
candidates are friends and even allies of the United States. A decision 
by those friends and allies to seek nuclear weapons would be a 
significant blow to U.S. interests.'' Do you agree with that 
assessment? Do you believe that it therefore follows that the United 
States has to make investments in the reliability and credibility of 
its nuclear deterrent not just for itself but in terms of what assures 
our allies, many of whom have only foregone the choice to develop their 
own nuclear weapons because of their confidence in the reliability of 
the U.S. nuclear deterrent?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Turner. Former Vice Chairman of the Joint Chiefs of Staff James 
Cartwright stated that ``[W]e do have challenges around the globe with 
strategic depth and [a] lack of [nearby] infrastructure and basing . . 
. [w]e've got to have a way to address those [urgent targets] credibly 
for our deterrent postures [to work].'' That ``way'' was known as 
conventional prompt global strike. Do you support the development by 
the United States of a conventional prompt global strike capability? 
Can you offer an example, perhaps from your time as Chairman, of when 
this capability could have been useful in dealing with a threat to the 
national security of the United States?
    General Pace. [The information was not available at the time of 
printing.]

    Mr. Turner. In December of 2010, during consideration of the New 
START treaty between the United States and Russia, the President 
stated: ``I recognize that nuclear modernization requires investment 
for the long-term . . . that is my commitment to the Congress--that my 
administration will pursue these programs and capabilities for as long 
as I am President.'' If you were still the principal military advisor 
to the President, would you urge him to continue to stand by that 
commitment? Has anything changed since December of last year when the 
President made this commitment to the Congress that would make the 
modernization of the U.S. nuclear deterrent now less important?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. The so-called Perry-Schlesinger Commission stated that 
it ``recommends retention of the current triad. Each leg of the triad 
has its own value. Resilience and flexibility of the triad have proven 
valuable as the number of operationally deployed strategic nuclear 
weapons has declined. They promise to become even more important as 
systems age and if back-up systems within each leg of the triad are 
reduced.'' Do you agree with this finding of the bipartisan commission? 
If so, do you believe that continued investment in the TRIAD is 
imperative? Because of the unique role played by each leg of the triad 
to the security of the United States, what are the risks, in your mind, 
to losing one or more of those legs?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. As Chairman, you were all involved in the process of 
reporting on the reliability of the nuclear stockpile. You may also be 
aware that under law, the directors of our nuclear weapons labs are 
required to be independent and offer the Congress and the President 
their best technical judgment. Do you believe this is an important 
principle? Do you believe the directors of our nuclear weapons labs 
must be persons of integrity and unquestioned technical expertise in 
the nuclear weapons field and that they should be independently chosen 
on that basis, free of political interference?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. The 2010 NPR stated that because of the conventional 
military superiority of the United States, it could reduce reliance on 
nuclear weapons. How will significant cuts in U.S. conventional 
military power affect the assumption that we can continue to reduce our 
nuclear forces that deter attacks on the United States and its allies?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. Earlier this year, then-Secretary of Defense Robert 
Gates said with regard to a decision not to fully fund the 
modernization of our nuclear deterrent that: ``This [nuclear weapons] 
modernization program was very carefully worked out between ourselves 
and the . . . Department of Energy. And, frankly, where we came out on 
that also, I think, played a fairly significant role in the willingness 
of the Senate to ratify the New START agreement. So the risks are to 
our own program in terms of being able to extend the life of our weapon 
systems . . . this modernization project is, in my view, both from a 
security and a political standpoint, really important.'' In view of 
your previous roles at the pinnacle of the U.S. military's officer 
corps, responsible for the security of this Nation, do you believe it 
is important that the modernization plan agreed to last year during the 
New START ratification process should be fully funded?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. Extended Deterrent and U.S. nuclear weapons 
modernization: The United States is on an aggressive path to modernize 
its B61 gravity bomb, with a first production unit needed by 2017 in 
order to keep an extended deterrent deployed in NATO. A significant 
budget cut--such as that possible under sequestration through the 
Budget Control Act or the Lew Memorandum to Federal agencies, which 
asks the agencies to plan for a 10 percent cut below FY11 enacted 
appropriations--would guarantee that the United States cannot meet the 
2017 timeline. This could mean the United States would have to 
immediately withdraw its nuclear weapons from Europe, which provide the 
so-called extended deterrent. What would your concerns be about the 
U.S. simply failing to modernize its forward deployed B61 bombs in view 
of its commitment to NATO and the Obama Administration's own NATO 
Strategic Concept commitment that as long as nuclear weapons exist, 
NATO will be a nuclear armed alliance? What signal would be sent to our 
European allies in NATO by such a failure? What signal would that send 
to Russia with its several thousand tactical nuclear weapons, many of 
which are located near the borders of our NATO allies?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. According to the 2010 edition of the annual report of 
the Director of National Security on Acquisition of Technology Relating 
to Weapons of Mass Destruction, Iran continues ``developing space 
launch vehicles, which incorporate technology directly applicable to 
longer-range missile systems'' and North Korea ``continues to pursue 
the development, production, and deployment of ballistic missiles with 
increasing range and sophistication . . . [and] continues to develop a 
mobile IRBM as well as a mobile solid-propellant'' ballistic missile. 
In view of the risks these growing ballistic missile threats pose to 
the U.S. homeland, do you have concerns about the failing budget 
support for missile defense, especially missile defense of the United 
States? As you may know, the ground-based midcourse defense element of 
our ballistic missile defense system has been cut by almost $1 billion 
since President Obama came to office.
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. The Perry-Schlesinger Commission also stated that ``A 
quick survey of the potential nuclear candidates in Northeast Asia and 
the Middle East brings home the point that many potential proliferation 
candidates are friends and even allies of the United States. A decision 
by those friends and allies to seek nuclear weapons would be a 
significant blow to U.S. interests.'' Do you agree with that 
assessment? Do you believe that it therefore follows that the United 
States has to make investments in the reliability and credibility of 
its nuclear deterrent not just for itself but in terms of what assures 
our allies, many of whom have only foregone the choice to develop their 
own nuclear weapons because of their confidence in the reliability of 
the U.S. nuclear deterrent?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Turner. Former Vice Chairman of the Joint Chiefs of Staff James 
Cartwright stated that ``[W]e do have challenges around the globe with 
strategic depth and [a] lack of [nearby] infrastructure and basing . . 
. [w]e've got to have a way to address those [urgent targets] credibly 
for our deterrent postures [to work].'' That ``way'' was known as 
conventional prompt global strike. Do you support the development by 
the United States of a conventional prompt global strike capability? 
Can you offer an example, perhaps from your time as Chairman, of when 
this capability could have been useful in dealing with a threat to the 
national security of the United States?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. Can you briefly talk about your views of the 
importance and impact that Non-Kinetic Effects such as electronic and 
cyber warfare had on the post-9/11 battle space, and what 
recommendations you would you make to capture the lessons we've learned 
about the integration of these effects, to ensure the Joint force is 
not forced to relearn painful lessons.
    General Myers. [The information was not available at the time of 
printing.]
    Ms. Giffords. The A-10C is an amazingly tough, durable and lethal 
aircraft. Can you discuss the A-10's distinctive capabilities, post-9/
11 contributions, and future role within the Air Force.
    General Myers. [The information was not available at the time of 
printing.]

    Ms. Giffords. Can you briefly talk about your views of the 
importance and impact that Non-Kinetic Effects such as electronic and 
cyber warfare had on the post-9/11 battle space, and what 
recommendations you would you make to capture the lessons we've learned 
about the integration of these effects, to ensure the Joint force is 
not forced to relearn painful lessons.
    General Pace. [The information was not available at the time of 
printing.]

    Ms. Giffords. Can you briefly talk about your views of the 
importance and impact that Non-Kinetic Effects such as electronic and 
cyber warfare had on the post-9/11 battle space, and what 
recommendations you would you make to capture the lessons we've learned 
about the integration of these effects, to ensure the Joint force is 
not forced to relearn painful lessons.
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT

    Mr. Scott. Do you support or oppose the sale of F-16 C/Ds to 
Taiwan?
    General Myers. [The information was not available at the time of 
printing.]
    Mr. Scott. Do you support or oppose lifting the ban on U.S. flag 
and general officers visiting Taiwan?
    General Myers. [The information was not available at the time of 
printing.]

    Mr. Scott. Do you support or oppose the sale of F-16 C/Ds to 
Taiwan?
    General Pace. [The information was not available at the time of 
printing.]
    Mr. Scott. Do you support or oppose lifting the ban on U.S. flag 
and general officers visiting Taiwan?
    General Pace. [The information was not available at the time of 
printing.]

    Mr. Scott. Do you support or oppose the sale of F-16 C/Ds to 
Taiwan?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]
    Mr. Scott. Do you support or oppose lifting the ban on U.S. flag 
and general officers visiting Taiwan?
    Admiral Giambastiani. [The information was not available at the 
time of printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
